<html>
<title> - THE PRESIDENT'S FISCAL YEAR 2015 BUDGET: ADMINISTRATION PRIORITIES FOR THE U.S. ARMY CORPS OF ENGINEERS</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



THE PRESIDENT'S FISCAL YEAR 2015 BUDGET: ADMINISTRATION PRIORITIES FOR 
                    THE U.S. ARMY CORPS OF ENGINEERS

=======================================================================


                                (113-62)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                            
                    WATER RESOURCES AND ENVIRONMENT

                                 OF THE

                              COMMITTEE ON
                              
                   TRANSPORTATION AND INFRASTRUCTURE
                   
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             APRIL 2, 2014

                               __________

                       Printed for the use of the
             Committee on Transportation and Infrastructure


         Available online at: http://www.gpo.gov/fdsys/browse/
        committee.action?chamber=house&committee=transportation


                                   ______

                         U.S. GOVERNMENT PRINTING OFFICE 

87-431 PDF                     WASHINGTON : 2014 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Printing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
                          



             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                  BILL SHUSTER, Pennsylvania, Chairman

DON YOUNG, Alaska                    NICK J. RAHALL, II, West Virginia
THOMAS E. PETRI, Wisconsin           PETER A. DeFAZIO, Oregon
HOWARD COBLE, North Carolina         ELEANOR HOLMES NORTON, District of 
JOHN J. DUNCAN, Jr., Tennessee,      Columbia
  Vice Chair                         JERROLD NADLER, New York
JOHN L. MICA, Florida                CORRINE BROWN, Florida
FRANK A. LoBIONDO, New Jersey        EDDIE BERNICE JOHNSON, Texas
GARY G. MILLER, California           ELIJAH E. CUMMINGS, Maryland
SAM GRAVES, Missouri                 RICK LARSEN, Washington
SHELLEY MOORE CAPITO, West Virginia  MICHAEL E. CAPUANO, Massachusetts
CANDICE S. MILLER, Michigan          TIMOTHY H. BISHOP, New York
DUNCAN HUNTER, California            MICHAEL H. MICHAUD, Maine
ERIC A. ``RICK'' CRAWFORD, Arkansas  GRACE F. NAPOLITANO, California
LOU BARLETTA, Pennsylvania           DANIEL LIPINSKI, Illinois
BLAKE FARENTHOLD, Texas              TIMOTHY J. WALZ, Minnesota
LARRY BUCSHON, Indiana               STEVE COHEN, Tennessee
BOB GIBBS, Ohio                      ALBIO SIRES, New Jersey
PATRICK MEEHAN, Pennsylvania         DONNA F. EDWARDS, Maryland
RICHARD L. HANNA, New York           JOHN GARAMENDI, California
DANIEL WEBSTER, Florida              ANDRE CARSON, Indiana
STEVE SOUTHERLAND, II, Florida       JANICE HAHN, California
JEFF DENHAM, California              RICHARD M. NOLAN, Minnesota
REID J. RIBBLE, Wisconsin            ANN KIRKPATRICK, Arizona
THOMAS MASSIE, Kentucky              DINA TITUS, Nevada
STEVE DAINES, Montana                SEAN PATRICK MALONEY, New York
TOM RICE, South Carolina             ELIZABETH H. ESTY, Connecticut
MARKWAYNE MULLIN, Oklahoma           LOIS FRANKEL, Florida
ROGER WILLIAMS, Texas                CHERI BUSTOS, Illinois
MARK MEADOWS, North Carolina
SCOTT PERRY, Pennsylvania
RODNEY DAVIS, Illinois
MARK SANFORD, South Carolina
DAVID W. JOLLY, Florida

                                  (ii)

  


            Subcommittee on Water Resources and Environment

                       BOB GIBBS, Ohio, Chairman

DON YOUNG, Alaska                    TIMOTHY H. BISHOP, New York
GARY G. MILLER, California           DONNA F. EDWARDS, Maryland
SHELLEY MOORE CAPITO, West Virginia  JOHN GARAMENDI, California
CANDICE S. MILLER, Michigan          LOIS FRANKEL, Florida
ERIC A. ``RICK'' CRAWFORD,           ELEANOR HOLMES NORTON, District of 
Arkansas,                            Columbia
  Vice Chair                         EDDIE BERNICE JOHNSON, Texas
DANIEL WEBSTER, Florida              GRACE F. NAPOLITANO, California
JEFF DENHAM, California              STEVE COHEN, Tennessee
REID J. RIBBLE, Wisconsin            JANICE HAHN, California
THOMAS MASSIE, Kentucky              RICHARD M. NOLAN, Minnesota
STEVE DAINES, Montana                ANN KIRKPATRICK, Arizona
TOM RICE, South Carolina             DINA TITUS, Nevada
MARKWAYNE MULLIN, Oklahoma           SEAN PATRICK MALONEY, New York
MARK MEADOWS, North Carolina         NICK J. RAHALL, II, West Virginia
RODNEY DAVIS, Illinois                 (Ex Officio)
MARK SANFORD, South Carolina
DAVID W. JOLLY, Florida
BILL SHUSTER, Pennsylvania (Ex 
Officio)

                                 (iii)

                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................    vi

                               TESTIMONY

Hon. Jo-Ellen Darcy, Assistant Secretary of the Army (Civil 
  Works).........................................................     7
Lieutenant General Thomas P. Bostick, Chief of Engineers, U.S. 
  Army Corps of Engineers........................................     7

           PREPARED STATEMENT SUBMITTED BY MEMBER OF CONGRESS

Hon. Janice Hahn, of California..................................    46

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

Hon. Jo-Ellen Darcy..............................................    48
Lieutenant General Thomas P. Bostick.............................    59

                       SUBMISSIONS FOR THE RECORD

Hon. Rodney Davis, a Representative in Congress from the State of 
  Illinois, request to submit to the record a letter to the U.S. 
  Army Corps of Engineers, Chicago District, summarizing GLMRIS 
  comments, March 21, 2014, signed by the following U.S. 
  Senators: Mark Kirk and Daniel Coats, and the following U.S. 
  Representatives: Peter J. Roskam, Daniel Lipinski, Larry 
  Bucshon, Andre Carson, William L. Enyart, Rodney Davis, Randy 
  Hultgren, John Shimkus, Adam Kinzinger, Cheri Bustos, Aaron 
  Schock, Jackie Walorski, Marlin A. Stutzman, Todd Rokita, Susan 
  W. Brooks, Luke Messer, and Todd C. Young......................    22
Hon. Jo-Ellen Darcy, Assistant Secretary of the Army (Civil 
  Works), responses to questions for the record from Hon. Eddie 
  Bernice Johnson, a Representative in Congress from the State of 
  Texas..........................................................    57

                        ADDITIONS TO THE RECORD

Jeffrey D. Shoaf, senior executive director, Government Affairs, 
  The Associated General Contractors of America, letter to Hon. 
  Bob Gibbs, a Representative in Congress from the State of Ohio, 
  and Hon. Timothy H. Bishop, a Representative in Congress from 
  the State of New York, April 1, 2014...........................    66
Jesse Thompson, chairman, Navajo County Board of Supervisors, 
  written testimony..............................................    68
  
[GRAPHIC] [TIFF OMITTED] 

 
THE PRESIDENT'S FISCAL YEAR 2015 BUDGET: ADMINISTRATION PRIORITIES FOR 
                    THE U.S. ARMY CORPS OF ENGINEERS

                              ----------                              


                        WEDNESDAY, APRIL 2, 2014

                  House of Representatives,
                    Subcommittee on Water Resources
                                   and Environment,
            Committee on Transportation and Infrastructure,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:08 a.m. in 
Room 2167, Rayburn House Office Building, Hon. Bob Gibbs 
(Chairman of the subcommittee) presiding.
    Mr. Gibbs. Welcome. The Subcommittee on Water Resources and 
Environment of the Committee on Transportation and 
Infrastructure will come to order. At this time I would like to 
welcome our newest member, David Jolly from Florida. Welcome to 
the Subcommittee on Water Resources and Environment.
    Let's see, let's see, we don't have any--OK. First of all, 
I want to ask unanimous consent that the hearing record be kept 
open for 30 days after this hearing in order to accept other 
submissions of written testimony for the hearing record.
    [No response.]
    Mr. Gibbs. Hearing no objection, so ordered. I am going to 
turn it over to the chairman of the full Committee on 
Transportation and Infrastructure, Congressman Bill Shuster, 
for an opening statement.
    Mr. Shuster. Thank you, Mr. Chairman, I appreciate it. And 
welcome to Secretary Darcy and General Bostick. Thanks for 
being here today.
    First, I wanted to touch on something that happened last 
week. The Obama administration released a proposed rule that 
would dramatically expand Federal jurisdiction over the waters 
and wet areas of the United States. This is yet another example 
of a disturbing pattern of an imperial Presidency that seeks to 
use brute force and executive action, while ignoring Congress.
    Unilaterally broadening the scope of the Clean Water Act 
and the Government's reach into everyday lives will have 
adverse effects on all of us. It will impact the Nation's 
economy, threaten jobs, and invite costly litigation, restrict 
the rights of landowners, States, and local governments, and 
make decisions about their land. This massive Federal 
jurisdiction grab was the subject of failed legislation in the 
110th and the 111th Congress. Strong bipartisan opposition 
prevented those bills from moving forward.
    Defeated in Congress, now the Obama administration is 
trying to achieve this Federal power expansion through a 
rulemaking. This proposed rule supposedly aims to clarify which 
water bodies are subject to Federal jurisdiction under the 
Clean Water Act. But I am extremely concerned there are serious 
flaws in this process. Twice, the Supreme Court has told the 
agencies that there are limits to Federal jurisdiction under 
the Clean Water Act, and that they had gone too far in 
asserting their authority. Now, the administration has taken 
those Supreme Court rulings and cherry-picked discreet language 
from them in an attempt to gain expanded authority over new 
waters, rather than heeding the directive of the Court.
    It is the responsibility of the Congress, not the 
administration, to define the scope of jurisdiction under the 
Clean Water Act. Regulation of the Nation's waters must be done 
in a manner that is responsible and protects the environment 
without unnecessary and costly expansion of the Federal 
Government. We cannot continue to protect our waters with 
unreasonable and burdensome regulations on our small business, 
farmers, and families.
    So, again, it is of great concern, and this committee will 
hold aggressive oversight in seeing what the agencies are up 
to, and stopping them, quite frankly. Because, as I mentioned, 
it failed twice in the Democratic-controlled Congress, with 
bipartisan support, and two Supreme Court rulings said that 
they didn't have the ability to do this.
    Again, I appreciate the Secretary being here, and the 
general, getting their views and priorities from the agencies. 
With the Corps of Engineers, what you are doing, you play a 
valuable role in the Nation, promoting waterborne 
transportation and appropriate flood protection. But the 
message should be clear; America does not properly maintain and 
modernize its most efficient means of transportation. And this, 
in the end, will lose us economic advantage in the global 
market, so it will cost us jobs.
    The administration once again is delivering a proposed 
budget that cuts necessary investment in the Nation's water 
infrastructure by 20 percent, and it is clear there is a 
disconnect between the administration and what we need to do in 
America.
    Again, I look forward to hearing from both of you today, 
and look forward to continuing to working with you as we face 
these difficult problems in America and transportation and 
water. Thank you, and I yield back.
    Mr. Gibbs. Thank you, Chairman. First of all, I would like 
to welcome Secretary Darcy, Army Corps Engineers Civil Works, 
and General Bostick, the chief engineer, and his folks behind 
him that we work closely with.
    Today, this hearing is about the President's fiscal year 
2015 budget, the administration's priorities for the U.S. Army 
Corps of Engineers. I am a strong supporter of the efforts by 
Congress to control Federal spending. But once again, I feel 
like this is the old movie ``Groundhog Day'' for most of us on 
this committee.
    Many of the Army Corps of Engineers activities that we are 
examining today are true investments in America because they 
provide jobs and stimulate an economic return. For nearly two 
centuries, the civil works mission of the Corps have 
contributed to the economic vitality of the Nation and have 
improved our quality of life.
    But, like ``Groundhog Day,'' this administration has again 
misprioritized the projects and programs of the Army Corps of 
Engineers. I believe the Congress and the administration must 
be supportive of programs that have a proven record of 
providing economic benefits.
    The fiscal year 2015 budget request by the administration 
for the Corps of Engineers is approximately $4.5 billion. This 
request is less than what was requested in previous budgets, 
and almost 20 percent less than what was appropriated by this 
Congress for fiscal year 2014.
    In 2011, we had some of the worst flooding on record in 
this country. In 2012, we were struck by several major natural 
disasters. And in 2015, it is likely an expanded Panama Canal 
will become operational. Yet, the President has learned little 
from the recent experiences of coastal storms since his budget 
proposes investing no funding for construction of shore 
protection projects nationwide. In addition, he sends to 
Congress a budget that has an ecosystem restoration 
construction budget that is three times larger than its coastal 
navigation construction budget.
    Fiscal year 2014 budget was where we expected to find funds 
to match the administration's rhetoric on initiatives, like the 
President's export initiative, or the President's ``We Can't 
Wait'' initiative. Since the funds are also absent in the 
fiscal year 2015, budget, perhaps we should call it the ``We're 
Still Waiting'' initiative.
    Instead, while the President is proposing just over $915 
million out of the Harbor Maintenance Trust Fund for operation 
and maintenance activities in fiscal year 2015, just last year, 
in Fiscal 2014, it is estimated the administration collected 
$1.566 billion in the Harbor Maintenance Trust Fund in taxes, 
paid by businesses for the purposes of maintaining America's 
ports. This will not keep up with a growing demand on our ports 
to accommodate more and larger ships that will leave the--and 
will leave the trust fund with almost $10 billion in IOUs in 
the Nation's ports at the end of the next fiscal year.
    This administration is not the first to shortchange 
America's water transportation system, but I find it 
irresponsible for any administration, or for Congress itself, 
to not fully spend the tax dollars collected for their intended 
purposes. We got a little heckling there. I know we need to 
find savings, but savings could be found by slowing down work 
on some environmental restoration projects until the economy 
turns around.
    Instead, the President's budget prioritizes these 
activities above coastal navigation. The largest coastal 
navigation expenditure in the construction general account is 
less than $35 million in the Delaware River area. By 
comparison, the three largest ecosystem project expenditures in 
the construction general account are for one project for almost 
$70 million, and another project for $65.5 million, and one 
project for almost $50 million. And two of those multimillion-
dollar ecosystem restoration activities are at the behest of 
other Federal agencies, like the United States Fish and 
Wildlife Service, and the National Marine Fisheries Service.
    I admire the good work the Corps of Engineers does related 
to the environmental restoration, but when our cities and towns 
are suffering from extraordinary flooding, and our farms and 
our factories are struggling to compete in the global 
marketplace, I believe we need to focus on missions that 
protect people and benefit the economy, and create jobs.
    While we in Congress understand the Corps of Engineers has 
to comply with the Endangered Species Act and other laws, every 
year the agency has to spend hundreds of millions of dollars on 
so-called environmental compliance activities at the whim of 
other Federal agencies with no end in sight. I think it is time 
for the Corps of Engineers--needs to say enough is enough.
    Budgets are about priorities. A priority of any 
administration should be to put the United States at a 
competitive advantage in the world markets. According to this 
budget, the coastal navigation system the Nation--that the 
Nation has today, which is the same coastal navigation system 
we had when the President took office, will be--will it be 
enough to keep the United States competitive when the Panama 
Canal expansion is complete?
    Many of us in Congress disagree. While the President's 
export initiative and ``We Can't Wait'' initiative made some 
promises to the public, unfortunately, many of us in Congress 
believe the President's budget does not deliver on these 
initiatives. Like the ``Groundhog Day,'' once again, the 
President overpromises and underdelivers.
    Lastly, the President's budget, proposed budget, for the 
Corps of Engineers strangles the planning budget for the new 
projects. The budget proposes a $45 million cut for studying 
new projects that are requested by local non-Federal project 
sponsors. The planning budget provides a tremendous value to 
the Nation by tailoring solutions to local needs, and is a 
direct link to the Army's planning for war fighting and force 
protection. By eviscerating and planning--the planning budget, 
the President's budget creates uncertainty for both the Army's 
civil works and military missions.
    On top of this budget malpractice, the President last week 
released a proposed rule that will dramatically extend the 
reach of the Federal Government when it comes to regulating 
ponds, ditches, and other wet areas. This will restrict the 
rights of landowners, increase compliance costs for those 
trying to create jobs in this country, stifle investment in 
those same businesses, and create an imbalance in the State and 
Federal roles in carrying out the goals of the Clean Water Act.
    I am extremely concerned that this administration is once 
again trying to do an end-around Congress to expand Federal 
power under the Clean Water Act.
    I look forward to your testimony today, and assign my--
yield my time to my ranking member, Mr. Bishop, for any 
comments he might care to make.
    Mr. Bishop. Thank you very much, Mr. Chairman, and I thank 
you for scheduling this hearing on the Army Corps of Engineers 
budget for fiscal year 2015. I wish to welcome our two 
witnesses today, and thank them for their service to our 
country.
    Before I proceed, I want to personally thank you, Assistant 
Secretary Darcy, for your support in moving the Hurricane Sandy 
recovery effort forward. As you know, the storm directly 
impacted Long Island and many of my constituents. All along the 
coast, beaches and dunes were obliterated, leaving thousands of 
people directly exposed to the full force of the Atlantic Ocean 
and future storms. Because of your leadership, we are now 
finally headed toward returning sand back to protect these 
beaches. I look forward to working with the Corps to see these 
projects through to completion. So, again, I thank you very 
much.
    I want to start off with a couple of specific statements 
about the budget, and then conclude with a comment about the 
recently released draft rule for the Waters of the United 
States. Despite the progress on Sandy, I am, for one--I am very 
disappointed in the administration's fiscal year 2015 budget 
request for the Corps. The total funding for the Corps has 
decreased by almost 17 percent from fiscal year 2014 
appropriated levels, and that is reflected in reductions in 
funding across the board in the construction, operation, and 
maintenance, and navigation, and Mississippi River accounts. It 
seems to me that we are well beyond the point of doing more 
with less. Rather, we are now at the point where we have to 
make difficult and very risky decisions on where we focus the 
Corps' efforts.
    From an O&M perspective, this means decisions on which 
communities and populations are put at risk of increased damage 
from floods, storm surges, lost navigational ability, and loss 
of structures. I can appreciate the can-do attitude of the 
Corps, but we all have to agree that cutting the budget will 
result in real impacts to the mission and ability of the Corps 
to do its job.
    As you are aware, we will hopefully soon conclude 
conference negotiations on the new Water Resources Development 
Act. We are confident that we will be able to provide the Corps 
with improved direction on how we, the Congress, would like the 
Corps to prioritize its activities, address working with non-
Federal sponsors, and handle the harbor and inland waterways 
needs across the country.
    The latter issue of harbors and the Harbor Maintenance 
Trust Fund is particularly important to me and many other 
Members on both sides of the aisle, whose districts depend on 
harbors. I will be releasing later today a letter to the 
Committee on Appropriations calling for the full utilization of 
the Harbor Maintenance Trust Fund without--and I stress this--
without diverting budgetary resources from other Corps 
construction or operation and maintenance programs. If there is 
one area that we have had consistent feedback on during the 
WRDA process, it is that Members, constituents, businesses, and 
communities want harbors and shipping channels into the harbors 
maintained to authorize widths and depths. But we don't want 
these maintenance needs to come at the expense of other Corps 
mission areas and construction projects. We have to find a way 
to get more money back to the donor harbors and support the 
needs of small and mid-sized harbors.
    And I would say to my colleagues on this committee I am 
urging you to join me in signing this letter. This is an area 
where, in our WRDA markup and in previous hearings over the 
course of the last 4 years on this subject, there has been near 
unanimity. It has not broken down along party lines. 
Republicans and Democrats agree that we want more money out of 
the Harbor Maintenance Trust Fund, but we do not want it to 
come at the expense of other accounts within the Corps. So, 
please, I urge you, join me in sending this letter to the 
appropriators, so that we, the Transportation and 
Infrastructure Committee, can speak with one voice on this 
issue that is important. Let us stop pointing fingers, and let 
us try to be part of the solution.
    The second area of concern is the decreased funding for 
both the investigations and the constructions account. The 
investigations account is being reduced by 36 percent, and the 
construction account by 32 percent from fiscal year 2014-
enacted levels. As you know, in a no-earmark world, the only 
way projects are being moved forward is by the administration 
asking for them. In my opinion, the reductions in these two 
accounts in particular takes away the primary role by which 
projects are being identified and integrated into the Corps 
program. My concern is that the Corps is losing critical mass 
and support in respect to engineers and projects with a budget 
approach of this sort.
    Before concluding, I want to briefly address last week's 
review of the Waters of the United States proposed rule. We 
have heard a lot of rhetoric about this being a regulatory 
overreach and regulation by fiat. For the record, when this 
administration proposed to clarify the scope of the Clean Water 
Act by a proposed guidance, which is the same manner--that is 
to say the same manner--used by previous administration, 
certain groups vehemently opposed it, and demanded a more 
formal rulemaking approach.
    In response to that call, the Corps and the EPA shifted 
gears, initiating what the public called for, a negotiated 
public rulemaking, one that has a mandatory public comment 
period before an agency can proceed further. Not surprisingly, 
many of the same concerned groups as before are now stating 
that the Government is overstepping its bounds. To be clear, 
the administration has stepped in only to alleviate the 
confusion and uncertainty surrounding the scope of the Clean 
Water Act that was a result of the Supreme Court's decisions in 
2001 and 2006.
    All parties, including developers, farmers, and resource 
managers would benefit from additional clarity on which waters 
are covered by the act and which waters are definitively not 
covered. This rulemaking effort is the response that people ask 
for. Perhaps, better than criticizing the public rulemaking 
process, we should allow it to move forward, and let decisions 
be made on science and on the feedback received. Let's forget 
the hyperbole and the vitriolic comments, and let's let the 
process work.
    Once again, I thank you, Assistant Secretary Darcy and 
General Bostick, for your work on behalf of our Nation's 
waters, and I look forward to your testimony.
    Mr. Chairman, I yield back.
    Mr. Gibbs. If other Members have an opening statement, they 
can submit them for the written record.
    And at this time I wanted to turn it over to Secretary 
Darcy for her opening statements. And if we can try to keep it 
within 5 minutes or so, because I want to allow plenty of time 
for Members to ask questions.
    So, welcome, Secretary Darcy.

 TESTIMONY OF HON. JO-ELLEN DARCY, ASSISTANT SECRETARY OF THE 
 ARMY (CIVIL WORKS); AND LIEUTENANT GENERAL THOMAS P. BOSTICK, 
        CHIEF OF ENGINEERS, U.S. ARMY CORPS OF ENGINEERS

    Ms. Darcy. Thank you. Thank you Mr. Chairman and 
distinguished members of this subcommittee. Thank you for the 
opportunity to present the President's budget for the civil 
works program of the Army Corps of Engineers for fiscal year 
2015. I am Jo-Ellen Darcy, the Assistant Secretary of the Army 
for Civil Works, and I will summarize my statement and ask that 
my complete statement be included in the record.
    The budget for fiscal year 2015 for the civil works program 
provides a fiscally prudent and sound level of Federal 
investment in the Nation's water resources. The President's 
2015 budget includes $4,561,000,000 in gross discretionary 
appropriations for the Army civil works program, offset by a 
$28 million cancellation of unobligated carry-in fiscal year 
2015. A total of 9 construction projects--3 of them navigation, 
4 flood risk management, and 2 aquatic ecosystem projects--28 
studies, and 6 designs are funded to completion in the 2015 
budget.
    Completed construction projects will result in immediate 
benefits to the Nation, and directly impact many local 
communities, as benefits are realized from the combined Federal 
and non-Federal investments. The civil works budget includes 
funding for 1 priority construction new start, and 10 new study 
starts in the investigations account, including the water 
resources priorities study, which will build upon and broaden 
the progress that is being made by the Corps in its North 
Atlantic Coast Comprehensive Study, which was funded under the 
Disaster Relief Appropriations Act.
    At a funding level of $915 million, the budget provides, 
for the third consecutive year, the highest amount ever 
proposed in a President's budget for work financed through the 
Harbor Maintenance Trust Fund to maintain coastal channels and 
for related work. The budget funds capital investments in the 
inland waterways, based on the estimated revenues to the Inland 
Waterways Trust Fund under current law.
    The budget also assumes enactment of the legislative 
proposal submitted to the Joint Select Committee on Deficit 
Reduction in 2011, which would reform the laws governing the 
Inland Waterways Trust Fund. The administration's proposal 
would generate an estimated $1.1 billion in additional revenue 
over 10 years, from the commercial users of these inland 
waterways. This amount reflects estimates of future capital 
investment for navigation on these waterways over the next 
decade, including an estimate adopted by the Inland Waterways 
Users Board.
    The proposal is needed to ensure that the revenue paid by 
commercial navigation users is sufficient to meet their share 
of the costs of capital investments in the inland waterways, 
which would enable a significant increase in funding for such 
investments in the future.
    The budget provides $398 million for dam and levee safety 
activities, including $38 million to continue the levee safety 
initiative, which involves an assessment of the conditions of 
our Federal levees.
    In continued support of the President's Veterans Job Corps, 
the budget includes $4.5 million to continue the veterans 
curation project, which provides vocational rehabilitation and 
innovative training for wounded and disabled veterans, while 
achieving historical preservation responsibilities for 
archeological collections administered by the Corps of 
Engineers.
    In summary, the 2015 budget for the Army civil works 
program is a performance-based budget that supports an 
appropriate level of funding for continued progress, with 
emphasis on those water resources investments that will yield 
high economic, environmental, and safety returns for the Nation 
and its citizens. These investments will contribute to a 
stronger economy; support waterborne transportation; reduce 
flood risks to businesses and homes; restore important 
ecosystems; provide low-cost, renewable hydropower; and deliver 
other benefits to the American people.
    Mr. Chairman and members of the subcommittee, I look 
forward to working with the committee in order to support the 
President's budget. Thank you.
    Mr. Gibbs. Thank you, Secretary Darcy.
    General Bostick, welcome.
    General Bostick. Chairman Gibbs, Ranking Member Bishop, 
Chairman Shuster, and members of the subcommittee, I am honored 
to testify before your committee today, along with Secretary of 
the Army for Civil Works, the Honorable Jo-Ellen Darcy, on the 
President's fiscal year 2015 budget for the civil works 
program, and the United States Army Corps of Engineers.
    I have been in command for nearly 2 years now, and I am 
extraordinarily proud of our people and the missions they 
accomplish each and every day. I would like to touch briefly on 
the U.S. Army Corps of Engineers campaign goals.
    First, we support the warfighter. We continue to work in 
more than 130 countries, using our civil works, military 
missions, and research and development expertise to support the 
Army's service component and combatant commanders. We often 
find ourselves at the apex of defense, diplomacy, and 
development with our work. And, as such, the Corps of Engineers 
supports the national security of the United States. Also, 
within this goal, we are focused on sustainability and energy, 
as well as our support to our interagency partners, such as the 
Department of State, Department of Veterans Affairs, Department 
of Energy, and many others.
    Second, transform civil works. I have had the opportunity 
to speak to many stakeholder groups and elected officials about 
the state of the Nation's water resources infrastructure and 
its shortfalls. The four elements of our civil works 
transformation strategy will help address some of these issues, 
and make us more efficient and effective. Those elements 
include: modernize the project planning process; enhance the 
budget development process through a systems-oriented approach 
and collaboration; evaluate the current and required portfolio 
of water resources projects through an infrastructure strategy 
to deliver solutions to water resources challenges; and, 
finally, to improve our methods of delivery to produce and 
deliver both products and services through water infrastructure 
and other water resource solutions.
    Third, we must reduce disaster risks and continue to 
respond to natural disasters under the national response 
framework, as well as our ongoing efforts with flood risk 
management. The Sandy recovery work is progressing on schedule. 
More than 200 projects from Florida to Maine and into Ohio were 
adversely impacted by the storm. In 2013, the Corps 
successfully repaired many projects, and returned approximately 
15 million cubic yards of sand to affected beaches. In 2014 the 
Corps is on track to remediate the remaining Sandy-impacted 
beaches, and we expect to place approximately 50 million cubic 
yards of sand on these beaches.
    The study team has been working with over 100 regional 
partners on the comprehensive study. The framework developed in 
this study looks at vulnerabilities across a large coastline, 
and identifies measures that could be used to mitigate future 
risk. It will include a full range of possible risk reduction 
strategies, from structural to nonstructural, and nature-based 
features. And it will provide regional partners with methods 
they can adjust to meet the demands within their specific 
communities.
    Fourth, prepare for tomorrow. This is about our people. 
Ensuring we have a pipeline of science, technology, 
engineering, and mathematics professionals, as well as a talent 
management plan for their growth and development.
    We are also focused on research and development efforts 
that will help solve some of the Nation's toughest challenges. 
One great example is the sea-level rise tool first developed in 
use for our post-Sandy recovery efforts. The interagency team 
that developed this tool won the President's Green Government 
Award last year. The calculator is now being utilized to 
analyze other vulnerable areas across the Nation.
    We are reviewing our internal operations and processes to 
ensure that, in a time of fiscal uncertainty and challenge, the 
Army Corps of Engineers is postured for future success.
    Lastly, we want to help our wounded warriors and soldiers 
transition into fulfilling civilian careers. I am proud that 
last year we had 140 Operation Warfighter interns in the Army 
Corps of Engineers, and assisted 120 wounded warriors in 
obtaining civilian jobs.
    Mr. Chairman, I ask that you and other Members refer to my 
complete written testimony submitted to the committee for the 
2015 budget specifics. I thank you for this opportunity, and 
look forward to your questions.
    Mr. Gibbs. Thank you, General. At this time I turn it over 
to Chairman Shuster for any questions he may have.
    Mr. Shuster. Thank you very much, Mr. Gibbs. Secretary 
Darcy and General Bostick, natural gas obviously has a 
tremendous opportunity for this Nation. In Pennsylvania alone, 
the Marcellus shale formation has produced 2.2 trillion cubic 
feet of natural gas in 2012, and it is reinvigorating 
Pennsylvania's economy. Unfortunately, bureaucratic red tape 
from the Corps of Engineers is preventing much of this 
production from going on in Pennsylvania, and getting to the 
market.
    Over a year ago, a single district office of the Corps of 
Engineers, the Baltimore office, made some new interpretations 
on how water resources crossing permits for natural gas 
pipelines were being reviewed in Pennsylvania. The new 
interpretation is duplicative. It requires duplicative reviews 
and is significantly delaying the issuance of permits from 
fewer than 60 days to now several months, in some cases.
    Even worse, it is blatantly unfair to Pennsylvania. You are 
letting a single Corps office treat Pennsylvania differently 
than it does other States. I have been told over and over again 
there is no change. My understanding is the process is very 
different. Under the current process, the Corps now categorizes 
virtually all gas pipelines crossing projects as category 
three, requiring Corps review. Under the provision, most 
pipeline projects were categorized under category one, which 
only required State or DEP for review and approval. Today, over 
90 percent of these pipeline projects are category three, 
causing significant delays, as I said.
    How can you tell me there is no change in the 
interpretation? And we continue to hear that from the Baltimore 
district, but it just, to me, seems like there has been a 
significant change. And we believe it is singling out 
Pennsylvania.
    Ms. Darcy. Congressman, within Pennsylvania, you have a 
general permit with the Corps of Engineers. In the last year or 
so--about 85 percent of the permits have been done by the State 
of Pennsylvania. The other 15 percent are ones that require 
Corps review.
    In the last year, we have also opened a new Corps district 
office in Tioga, Pennsylvania, that, I think, is dealing more 
specifically with some of these new requests.
    Mr. Shuster. Those are nice words, but that is not what we 
are hearing from the producers in Pennsylvania. And we are 
going to absolutely nail down the numbers that we are getting 
and present them to you. Because, again, I disagree that is 
happening.
    When you look at the pipeline projects that are in other 
States that follow the nationwide permit 12, Pennsylvania is 
treated differently. And I have a chart here that has one, two, 
three, four, five, six, seven--seven States on it, and only 
Pennsylvania has impacts added for general permitting review. 
These other seven States do not. And how come they have water, 
they have mountains, they have the same situation going on, and 
Pennsylvania--and I have heard over and over--Arkansas, for 
instance, I talk to folks from Arkansas, they are drilling, and 
they say, ``We don't have a problem.'' It is just in 
Pennsylvania.
    And again, it just seems to me it is coming out of the 
Baltimore district office. So something that--again, my gas 
producers are telling me over and over again these things are 
occurring. And, as I said, I show a chart here. Pennsylvania is 
in a different category than the rest of these States. It is 
something we have to get to the bottom to.
    Again, we are now getting our producers to get the facts, 
and we want to make sure you come in, you can sit down, and you 
can have your day and refute what they are saying. But, again, 
it is having a significant negative impact in Pennsylvania. 
And, again, it is not fair, and we want to make sure we get 
this resolved.
    Ms. Darcy. We would be happy to work with you on that, 
Congressman. I am not quite sure which other States you are 
referring to, but some States don't have the same general 
permit agreement that Pennsylvania does. Some of them are 
operating, as you mentioned, under the----
    Mr. Shuster. Well, it is 404 general permitting, and it is 
the nationwide permit 12. Louisiana, Arkansas, Oklahoma, Texas, 
Ohio, West Virginia, are all under those same provisions, I am 
told, and they don't have to go through any of the process 
Pennsylvania does, or less of a process, I should say, than 
Pennsylvania.
    So, I have got this, I will provide it to you. But, again, 
we look to follow up. And, again, I am going to bring the 
experts in from my State that know far more than I do that can 
sit down with your folks and figure this out. Because, again, 
if Pennsylvania is not allowed to produce, it is going to 
damage, obviously, Pennsylvania's economy, it is going to 
damage jobs, it is going to damage the Nation. And right now we 
have an opportunity in the world to make sure we are producing 
gas and getting our gas overseas so we can stop what Russia is 
trying to do, and this is one way that we can use it as a lever 
to stop that.
    So, again, we will be talking to you, and I am going to 
make sure we provide this to you. Thank you very much.
    Mr. Gibbs. OK. Mr. Bishop?
    Mr. Bishop. Thank you very much, Mr. Chairman, and I thank 
our witnesses.
    I want to--before--I have a couple questions I want to ask 
about the Clean Water Act proposed rulemaking, but I just want 
to just put on the record two things.
    One is that, while we are here right now, the House Budget 
Committee is marking up a resolution, budget resolution, that 
would cut domestic discretionary spending by $791 billion over 
the next 10 years from the post-sequestration baseline. Now, 
that is where the Corps' money comes from, the domestic 
discretionary account. And it is inconceivable that if we were 
to ever put into law a $791 billion cut to domestic 
discretionary spending from post-sequestration levels, that 
somehow the Corps would be held harmless. It is inconceivable.
    And so, what I am going to urge all of us to do, both sides 
of the aisle, is let's not point fingers. Let's not blame the 
President or the Corps for budget allotments that are 
insufficient--we all agree they are insufficient--but then turn 
around and vote for a budget resolution that would make those 
budget allotments which are insufficient look like a day at the 
beach. It is just not--it is not consistent, it is not helpful, 
it is not productive.
    And, at the same time, if we are serious about what we have 
all said, virtually all of us, about the Harbor Maintenance 
Trust Fund, then let's sign my letter, let's sign Congresswoman 
Hahn's letter, let's put some pressure on the appropriators to 
do what we collectively, as a T&I Committee, think we should 
do. I urge us to do that. We have been, I think, a model of 
nonpartisanship in the way we have approached this issue. Let's 
continue that by approaching the appropriators with a formal 
request. End of sermon; I am sorry.
    Waters of the United States. The import of the SWANCC and 
Rapanos rulings, as I understand it, is that in order for a 
water to be regulated under the Clean Water Act, that body of 
water had to maintain a nexus to a navigable body of water. Is 
that correct?
    Ms. Darcy. Yes, that is correct.
    Mr. Bishop. And is it correct that the proposed rulemaking 
that the Corps and the EPA released lives entirely within that 
definition?
    Ms. Darcy. Yes, it does.
    Mr. Bishop. OK.
    Ms. Darcy. It also provides a definition of significant 
nexus that is out for public comment.
    Mr. Bishop. OK. Thank you. Is there any body of water that 
was not regulated by the Clean Water Act in the 30 years that 
the act existed, pre-Rapanos, pre-SWANCC, that is now--would 
now be subject to Clean Water Act regulation, based on the new 
proposed rule?
    Ms. Darcy. No, Congressman.
    Mr. Bishop. Thank you. And the whole notion of rulemaking 
is one that has routinely been engaged in to define the act. Is 
that correct?
    Ms. Darcy. That is correct, sir. Also, Rapanos requested 
that the agencies do a rulemaking in order to clarify.
    Mr. Bishop. OK. And the rule--is it correct that the 
existing exemption for prior converted farmland, and the 
existing exemption for wastewater treatment systems, those 
exemptions were created by rulemaking? Is that correct?
    Ms. Darcy. That is correct.
    Mr. Bishop. Not legislation?
    Ms. Darcy. That is correct.
    Mr. Bishop. OK. Do the existing farmland exemptions that 
existed in Clean Water Act and, in effect, have been protected 
by SWANCC and Rapanos, do those exemptions remain within the 
proposed rulemaking that you are putting forward?
    Ms. Darcy. Yes, they do for farming, silviculture, and 
ranching.
    Mr. Bishop. OK. Thank you very much. Mr. Chairman, I yield 
back the balance of my time.
    Mr. Gibbs. OK, thank you. Secretary Darcy, well, first of 
all, I want a statement--talk about prioritizing spending, and 
the President's budget, in my opening statement, I talk about 
how much is going for eco-restoration and not for the 
construction projects.
    And in regard to my ranking member's comment about baseline 
spending and post-sequester, I don't want anybody to get the 
idea that there is not--there is less money from the previous 
years in the total budget apparatus that is being set up, 
because it is baseline, it is after sequester now, we are past 
the cuts, it is actually still growing funds, just not 
getting--it is not posing as much growth as we have posed in--
baseline.
    Secretary Darcy, the 10 largest ports that--authorized 
today, if Congress were to enact the President's budget, of 
those 10 largest ports, how many of them would be at their 
authorized dimensions by the end of fiscal year 2015?
    Ms. Darcy. Well----
    Mr. Gibbs. Well, first of all, how many aren't? Or, you 
know, out of 10, how many are not authorized, and how many 
would be if we enacted this budget?
    Ms. Darcy. This budget plans for the operation and 
maintenance dredging for about 59 of the highest use commercial 
harbors in the country. However, they would not be fully 
dredged to their authorized width and depth. I think it is one-
third of the time they would be.
    General Bostick. Right. They are dredged to half their 
authorized width one-third of the time.
    Mr. Gibbs. A third of the time?
    General Bostick. A third of the time they are dredged to 
half their authorized width.
    Mr. Gibbs. But of the 10--but I think that is counting all 
the 59 largest. But the 10 largest ports, the----
    General Bostick. That is counting----
    Mr. Gibbs [continuing]. Ones, how many of those are at 
their depths, you know, required depths, now? Do we know?
    General Bostick. I don't know that. We would have to----
    Mr. Gibbs. I think it is probably two, but I am just kind 
of guessing.
    Ms. Darcy. Two? Well, I was----
    General Bostick. Some of those are naturally----
    Mr. Gibbs. What is that?
    General Bostick. Some of those are naturally dredged at 
that depth, but----
    Mr. Gibbs. But I am getting--I guess I am not hearing that, 
if we enact the President's budget, that we are going to--you 
know, those 10 largest ports for our import and our exports, 
our economy, will be there at the depths they need to be, 
especially the Panama Canal coming online.
    Ms. Darcy. Congressman, we will get you that----
    Mr. Gibbs. OK.
    Ms. Darcy [continuing]. List of the 10, and----
    Mr. Gibbs. Next----
    Ms. Darcy [continuing]. What they would be.
    Mr. Gibbs. Next question. Secretary Darcy, you talk about 
President's budget, for the second time, proposes an $80 
million fee for vessels on the inland waterway system. And you 
mentioned that in your opening statement, but you didn't say 
where the $80 million is coming from, other than the vessels. 
So what--mechanically, what or how would--is it lock fees, or 
what is it?
    Ms. Darcy. It would be a user fee, it wouldn't be a lockage 
fee. That was something that was contemplated awhile back. This 
would be a user fee. And the exact specifics are still in 
development, but it would be a user fee on the transport 
through the lock by the particular vessel.
    Mr. Gibbs. OK. On the--regarding the Clean Water Act and 
the proposed rule, I know there is a--be a 90-day comment 
period. What other things are scheduled, the remaining steps in 
the rulemaking process? You know, what----
    Ms. Darcy. Well, there is, as you mentioned, a 90-day 
public comment period. After that public comment period is 
concluded, the agencies will address those public comments 
before any rule is final.
    We are also currently awaiting the EPA Science Advisory 
Board recommendations----
    Mr. Gibbs. Well, OK, that is what I wanted to get to, and I 
am glad you brought that up, because that was my next question, 
about the science report.
    And, you know, we talk about the need for this to bring 
clarity. And it seems like, to me, the Corps and the EPA kind 
of got the cart ahead of the horse here, because the science 
report is--the assessment is not done, and you already put out 
the rule for comment. Wouldn't it makes sense to see what the 
connectivity report, science report, says first?
    Ms. Darcy. Congressman, the connectivity report--science 
report--is out there, as well. It is currently being reviewed 
by the Science Advisory Board, which was made up of a number of 
professionals in related areas. The science report was produced 
within EPA, and then now it is being reviewed by the Science 
Advisory Board. We put it out at the same time. We will not 
finalize a rule until the connectivity report has been 
concluded and the results prepared by the Science Advisory 
Board.
    Mr. Gibbs. I know you already answered questions about 
possible exemptions, agricultural exemptions and others. When I 
look at the rule, I get nervous because you talk about the--
some things we looked at case by case, you talk about the nexus 
issue and tributaries, you can redefine tributaries. I think 
some people could interpret it that it is possible that ditches 
could be included in this. And I have had some farmers already 
ask me how about if they are crossing with their equipment, say 
28 percent nitrogen fertilizer, across a swail, you know, would 
that become a regulations--you know, it seems mission creep. 
But I am really concerned about that.
    Ms. Darcy. Congressman, when we proposed the rule last 
week, at the same time we also published an interpretive rule 
with EPA, and we, the Army Corps of Engineers, entered into a 
memorandum of understanding with U.S. Department of Agriculture 
and EPA in order to make it clear what was exempt. And we went 
to the silviculture, farming, and ranching practices that I 
mentioned earlier, in addition to those farming practices that 
have come on board since the passage of the Clean Water Act 
that are now considered existing farming practices. Some of 
them help to improve conservation, some of them help to improve 
water quality, and we have a list of those 52--I think it is 
53--practices that would continue to be exempt.
    Mr. Gibbs. OK. My time has expired, but we will do another 
round. Got more questions.
    But Ms. Edwards? Yes, we move pretty quick here.
    Ms. Edwards. Thank you. I didn't think I was next, I 
thought--I just arrived, so I apologize.
    Well, thank you very much. I just have one potential 
concern with the proposed rule that the EPA and Army Corps are 
bringing certainty to various sectors of our economy that has 
been asking EPA for a rule to address the regulatory status. 
But the proposal is very important, as you know, the State of 
Maryland, since we have the fourth longest coastline in the 
continental United States. I think people find that hard to 
believe, given how small our State is. The Chesapeake Bay and 
several of its tributaries, including the Anacostia, which runs 
through my district, the Potomac, and Severn Rivers that all 
flow through the Fourth Congressional District, and the 
shoreline of the Chesapeake and its title tributaries actually 
stretch over 2,000 miles, with thousands of miles of streams, 
rivers, and acres of wetlands.
    So, I wonder if you could tell me about the proposals that 
you have, in terms of the restoration of the Chesapeake Bay for 
protection of health, and the health of the watershed. And 
also, if you could, talk to me about the progress of the 
projects along the Anacostia River. There have been several 
proposals over a period of time, and it feels like if we could 
just really jump in there, we have some great potential with 
also restoring the Anacostia.
    Ms. Darcy. I will start with the Chesapeake Bay. As you 
know, the Chesapeake Bay is one of the ecosystems of national 
significance that we have been looking at, in addition to all 
of our other Federal partners. Our current expenditure for 
Chesapeake Bay--I am looking at my staff behind me--I don't 
have it at the tip of my fingers, what it is for--but I will 
get that to you before we leave here, for that Chesapeake Bay 
restoration. I know we are doing oyster restoration in the bay.
    Ms. Edwards. Right.
    Ms. Darcy. I think that was budgeted at $5 million, but----
    Ms. Edwards. That is right.
    Ms. Darcy [continuing]. I would have to check that. And it 
has been very successful throughout the bay. Actually, I was 
able to see how some of it was being implemented in the Norfolk 
District in that very southern part of the coastline.
    As far as the Anacostia River, we have undertaken a 
comprehensive study with a number of local communities, the 
city of Washington, as well as Montgomery County and Howard 
County, in putting together an Anacostia study for restoration 
of that river, and----
    Ms. Edwards. Prince George's County, too, right?
    Ms. Darcy. Yes.
    Ms. Edwards. Thanks.
    Ms. Darcy. I used to live in Maryland, I am trying to go up 
the coast. It has been very successful. And part of that was a 
combination of not only the Corps study, but each of the local 
communities looking at what it is they could do within their 
own authorities, as far as restoration and cleanup, including 
things like stormwater runoff, or different kinds of 
conservation, as well as recycling in each of those 
jurisdictions. The study is in the 2015 budget; we have funded 
this particular study to completion, so it should be finished 
in 2015.
    Ms. Edwards. And so then, how--you know, after the study is 
completed, I guess the people who live along those--along the 
rivers, and particularly the Anacostia, wonder. After the study 
is completed--and this has been a long process for them--then 
what? And how soon?
    Ms. Darcy. After the study is completed, the 
recommendations in the study, which have all been sort of 
agreed to within the communities, the implementation will 
happen. Whether it is project-specific for a city, or whether 
it is a county, if a particular project is recommended, we 
would find cost-share sponsors in order to move forward with 
those activities.
    Ms. Edwards. OK.
    Ms. Darcy. I don't have the specifics of what those 
projects are, but I can provide those to you for the record.
    Ms. Edwards. Well, we should maybe follow up with that.
    Ms. Darcy. OK.
    Ms. Edwards. And then, lastly, I wonder--although it is not 
in my district, it is of great concern to all Marylanders, and 
that is what is happening with the Baltimore Harbor and the 
operations and maintenance work that is going on there. And if 
you could, describe that a bit and give us a sense of the 
progress, and then the budget allocation.
    Ms. Darcy. OK.
    Ms. Edwards. Which has increased this year, I understand.
    Ms. Darcy. I think our O&M budget for Baltimore did 
increase this year. I am going to ask Amy to get you the exact 
number.
    Ms. Edwards. And how is the--I mean budget has increased. 
What is the progress?
    Ms. Darcy. In the Baltimore Harbor? I think we have had 
significant progress there. It is one of our showcase ports on 
the east coast, because it is at 50-foot depth already. There 
is lots of competition for additional depths in other places, 
but Baltimore is already at 50, so that is a good news story.
    Ms. Edwards. Great, thank you. Thank you, Mr. Chairman.
    Mr. Gibbs. Mr. Crawford?
    Mr. Crawford. Thank you, Mr. Chairman. I want to thank 
Secretary Darcy and General Bostick for being here today.
    Secretary Darcy, I represent the First District of 
Arkansas, and we refer to it as the east coast of Arkansas. I 
have about 600-plus river miles of the Mississippi River, among 
other rivers in the district. And, as you know, the shallow 
draft ports located on the Mississippi River didn't receive 
adequate funds for dredging. In order for us to have a 
successful river system, it is critical that all those ports 
are in working order. We consider those ports the on-ramp to 
the super-highway that is the Mississippi River. And I commend 
you for including the dredging projects in your work plan for 
this year.
    I have been working with many of my colleagues to ensure 
that the current WRDA bill contains a mechanism so that 
Congress can provide regular funding to dredge those additional 
ports. Madam Secretary, with the important role that these 
ports play in our country's economy, what is the reason the 
administration has not made their maintenance a higher priority 
in their budget?
    Ms. Darcy. Congressman, when we do the budgeting for the 
operation and maintenance of our ports and inland waterways, we 
focus on the highest commercial use. And those are the ones 
that we referenced earlier. So the lower use ports don't get as 
much as the ports that have higher commercial use.
    Mr. Crawford. I would only offer that we try to balance it. 
We talk about the top 59 carrying 90 percent of the cargo. And 
of all of the money that is allocated, 70 percent of the money 
goes to those top 59 that carry 90 percent. And we don't give 
them 90 percent, which one might think is parallel, in terms of 
the amount we would offer, so that we can provide funds to the 
moderate and low commercial-use ports. So it is not--and even 
in terms of the percentage of what they provide, but it is an 
understanding that we do have to do exactly as you say.
    Thank you, yield back.
    Mr. Gibbs. Mr. Garamendi?
    Mr. Garamendi. Thank you, Mr. Chairman. This hearing 
started out with a discussion on the overall budget. The 
ranking member, Mr. Bishop, correctly pointed out that this is 
a problem that we have created. This House and the Senate have 
put together the sequestration. And the proposed budget that is 
now before the House from the Majority party is an 
extraordinary decrease in the discretionary funds, which will 
have a direct impact on what the Army Corps of Engineers is 
able to do within the United States. And so, we should be 
paying very, very close attention to what we, the House of 
Representatives and the Senate, are doing to the Corps 
projects.
    Having said that, I do want to focus on a couple of other 
issues that are there. First of all, I want to thank Ms. Darcy 
and the general for the work that you are doing on trying to 
push forward projects very quickly. Your 3 <greek-e> 3 is 
actually working, and we see it in our area, in the Sacramento 
Valley, projects that once took years--I mean multiple years, 
decades--are now being moved forward very quickly. I hope you 
continue that work. You can comment, if you would, at the end 
of my discussion here.
    Also, I want to thank you for the ecosystem restoration 
projects, which are more than ecosystem. These are actual 
construction projects that are life-saving. The Hamilton City 
Project is one that is now underway. It is ecosystem, in that 
it sets back the Sacramento River levee, creating a habitat and 
flood protection for a small community, Hamilton City. Thank 
you very much for pushing that forward under the ecosystem 
umbrella.
    Also, the Yuba River Project is an ecosystem project. It is 
extremely important. And, again, it is on your agenda, and I 
thank the Corps and Ms. Darcy for having pushed that forward.
    There are other things that are going on, all good. The 
Corps is able to move projects forward. The Sutter Buttes 
Project, 40 miles of levee improvement, perhaps as many as 
200,000 people will be safer as that project moves forward. And 
I thank you for moving that forward.
    The Natomas Project, perhaps the most dangerous after--most 
dangerous city, Sacramento--after New Orleans, and maybe now 
the most dangerous, you have moved that project forward. We 
thank you for that.
    There are other things that are out there, and I would like 
to call the attention of the committee to an issue that we 
dealt with in the 1990s for all of the recreation programs that 
are conducted by the Federal Government. The National Parks, 
the Bureau of Reclamation, Fish and Wildlife Service, all of 
these agencies provide significant recreational opportunities 
for Americans and visitors from overseas.
    In the 1990s, we allowed those organizations to use the 
fees collected at the recreation sites to enhance the 
recreation opportunities and visitor opportunities for 
everything, national parks, and the like. Somehow we left out 
the Corps of Engineers. And the Corps of Engineers recreation 
fees go back to the general fund. And then we have to 
appropriate money for enhancements of the recreational programs 
that the Corps of Engineers runs.
    We ought to do away with that. We ought to let the Corps 
keep the recreation fees, avoiding the appropriation process, 
which starves the Corps of Engineers recreation programs. I 
think this is something in all of our districts we should pay 
attention to.
    Now, I don't know why it was there in the 1990s, I was at 
the Department, and I wasn't really paying attention to the 
Corps, I suppose, and it got left out.
    All in all, I want to compliment the Corps for moving 
forward. We will take up the Waters of the U.S. at another 
hearing. But right now you have done well by my district, and I 
appreciate it. Thank you.
    Ms. Darcy. Thank you, Congressman.
    Mr. Gibbs. Mr. Webster?
    Mr. Garamendi. Yield back my time.
    Mr. Gibbs. Yes. Mr. Webster?
    Mr. Webster. Thank you, Mr. Chairman. Secretary Darcy, if a 
port wants to do a deepening project on their own under section 
204 of WRDA from 1986, and then have the Corps take the 
responsibility of maintenance and operation, how does the Corps 
define ``prior to construction''? Is it a--when a contract is 
advertised, or is it when the contract is awarded, or is it 
when the dredge actually drops a bucket into the water?
    Ms. Darcy. When the contract is awarded, sir.
    Mr. Webster. What types of determinations does the Corps 
have to make prior to agreeing to assume that operation and 
maintenance responsibilities of a locally constructed 
navigation project?
    Ms. Darcy. In order to assume the maintenance?
    Mr. Webster. Yes.
    Ms. Darcy. We just have to assure that the project has been 
developed and constructed according to the Corps regulations. 
And, after that, the O&M, under section 204, a request has to 
come to my office, and then the assumption of O&M would be 
granted.
    Mr. Webster. I have one other question. Well, I see Ms. 
Frankel here, so I will ask about the JAXPORT, Jacksonville 
Port, in Florida. There is a deepening study that is being 
done. Could you give me kind of the progress on that, and 
possibly what the current timeline looks like?
    Ms. Darcy. For Jacksonville?
    Mr. Webster. Yes.
    Ms. Darcy. It has already gone through the Civil Works 
Review Board, which is one of the last steps it goes to before 
it has to go to the Chief of Engineers for a final signature. 
And I believe JAXPORT is on schedule for this month. Yes, this 
month.
    Mr. Webster. General, could you elaborate on that? Is that 
true?
    General Bostick. We have some more interagency work to do, 
Congressman, but we believe by the end of this month we will 
have it up to my office. And, assuming everything is straight, 
I will sign it. By the time it reaches my office, it is in 
pretty good shape.
    Mr. Webster. OK. Thank you very much. Yield back.
    Mr. Gibbs. Ms. Johnson?
    Ms. Johnson. Thank you very much, Mr. Chairman. I have four 
questions that I would like to submit to get the answers at a 
later time, because I have got to run to another meeting. But 
let me thank the Corps of Engineers for their representation 
today.
    With the continued drought throughout the western United 
States, it is more important than ever that the Federal 
agencies work together to assist States and local communities 
in addressing their needs, and it is equally important that 
Federal water agencies ensure that they are doing all that they 
can to enhance the resources within their authorities. And I do 
appreciate the efforts that the Corps has made in collaborating 
with the USDA and Department of Labor and other Federal 
agencies to address these needs.
    But we have--and we have worked collaboratively in Texas 
for a long time to achieve some of this, but I do understand 
that the Corps of Engineers stores more than 10 million acre-
feet of water for municipal and industrial water supply behind 
the multipurpose reservoirs it operates and maintains. And this 
is enough to meet the annual needs of 6.8 million households. A 
majority of the municipal and industrial water supply storage 
is located in reservoirs kind of throughout the southwestern 
U.S. And I have four questions that I would like you to get the 
answers to me later.
    One, you know, some of your plans for working with these 
local communities, and how these multipurpose reservoirs west 
of the Mississippi, that is more than 1.4 million acre-feet to 
make sure this water is available. Right now it appears that it 
is not being made available. And I would like to know, you 
know, what the plan is to make this water available to these 
local communities.
    And I will submit these questions, and would like to 
receive an answer within the next 3 weeks. Thank you very much, 
Mr. Chairman.
    Mr. Gibbs. Mr. Davis?
    Mr. Davis. Thank you, Mr. Chairman, and thank you, 
Secretary Darcy, General Bostick, for being here today. I have 
a couple questions on a few different issues.
    Number one, I just want to give you fair warning when you 
come back to this committee--I just talked about this subject 
with your St. Louis District--and it is a design flaw in lock 
and dam 27, the Mel Price Project, that is causing some damage 
to the Wood River levee system. And, as you know, our locals 
have put up their share of the funding to be able to upgrade 
their levees throughout the Metro East area to ensure that FEMA 
will again accredit those levees at certain levels, so that our 
costs to taxpayers do not continue to rise.
    I have some concerns, as this project moves forward, with 
the estimated cost that it is going to take to fix that problem 
that has been caused by that design flaw. So I won't have you 
address it today, but it is something that I will be asking 
about in the future, as you get more information. And I 
appreciate the info that the St. Louis District has given me.
    Also, as you are aware, there is an issue with the locals 
in regards to project labor agreements which are in the locals' 
provision that provided for the funding for--their cost share, 
and I know that St. Louis District is working with you to 
address that problem, too. And I would like continued 
cooperation and communication on that issue, too. But I want to 
change directions here a little bit. The President's budget 
requests $29 million for construction projects to halt the 
spread of Asian carp.
    I know in my district along the Mississippi River and 
central and southwestern Illinois we have some innovative ways 
to deal with Asian carp. But I see that we already have 
demonstration barriers to keep the Asian carp out of our Great 
Lakes. And noting how they have already been constructed and 
how they are operating, what is this $29 million funding 
request for?
    Ms. Darcy. The $29 million is not only for the continued 
operation of the barriers, but also to complete the 
construction of the permanent barrier. We had temporary barrier 
1, then we had barrier 2A and 2B, and I believe this is the 
final construction for the permanent barrier 1. Is that right? 
Am I right, General?
    General Bostick. The specifics are about $12 million for 
barrier 1, and then another $5 million for the backup 
generators that keep the barriers operational electrical-wise, 
and then O&M for the barriers is about $12 million.
    Mr. Davis. OK. What are the annual O&M costs of these 
projects, once complete?
    General Bostick. I don't have that figure, but we can 
provide it to you.
    Mr. Davis. OK. I would like to submit a copy of a letter 
that I, along with the rest of my delegation Illinois and 
Indiana, signed. It is on the GLMRIS study. It looked at eight 
options to control spread of Asian carp, and I want to note our 
concern with the recommendations in the study that involves 
some sort of hydrologic separation because of economic impacts.
    I would ask unanimous consent, Chairman, to submit this 
letter into the record, and I would like to ask either General 
Bostick or Secretary Darcy. What do you plan to do with the 
GLMRIS report?
    Ms. Darcy. Congressman, as you noted, the GLMRIS report 
came up with alternatives. We were tasked through the MAP-21 
legislation to do an analysis of how aquatic nuisance species 
are transferred between the Mississippi River and the Great 
Lakes. In looking at that, we identified what invasive species 
were the most risk for that transfer between the two basins, 
and we looked at alternatives for trying to combat that 
transfer of the species. We came up with eight alternatives 
ranging from a no-action alternative to doing best practices to 
hydrologic separation.
    All of those alternatives have been the subject of seven 
public hearings during the month of January and half of 
February. The public comment period has closed as of the 31st 
of March. We intend now to take those public comments, review 
them, and the next step will be to look at what it is on which 
there might be some consensus. You may be aware that the Great 
Lakes Commission is looking at this issue as well as the upper 
Mississippi, looking at what there might be a consensus as to 
how we would move forward in trying to combat this invasive 
species.
    Mr. Davis. Thank you very much. I do want to commend the 
Corps, too, on I see that the Veteran's Curation Project is 
getting $4.5 million. We share a common goal to make sure that 
our veterans get employment when they return home. As a matter 
of fact, the House in a bipartisan way passed the Hire More 
Heroes Act that I introduced just last week, and I see that 
Senator Blunt has taken that cause up in the Senate. So I hope 
we can see some movement there. This important program has put 
our veterans back to work, and I want to note that 124 veterans 
have been trained and employed through the program in the St. 
Louis District Center. And I have one, last question for you. 
How can we leverage some existing dollars to get even more 
veterans trained through this program?
    Ms. Darcy. I think part of the success of the program is 
the fact that these veterans are out in the private sector, as 
well as in Government working with the skills that they have. 
And these skills that they've achieved in 6 months, whether it 
is learning how to digitize, or learning how to operate camera 
equipment, I think that is where we can leverage, once the 
public sector realizes what value they bring. And, also, this 
program was a brainchild of our great employees in the St. 
Louis District.
    Mr. Davis. Well great. Well thank you very much. I don't 
have any time to yield back to the chairman.
    Mr. Gibbs. So ordered for your document to put into the 
written report.
    [The information follows:]
    
    [GRAPHIC] [TIFF OMITTED] 
    
    Mr. Davis. Thank you.
    Mr. Gibbs. And I believe your answer of the O&M is about 
$12 million.
    Mr. Frankel?
    Ms. Frankel. Thank you, Mr. Chair. I want to associate 
myself with Mr. Garamendi, first of all to just thank you all. 
I have enjoyed working with the Army Corps in south Florida, 
and I don't think the public really understands how important 
your work is. And this is about job creation and protection of 
our natural resources. And I know it is a difficult assignment, 
and I have a feeling you would have preferred to come here with 
a much more robust budget.
    A couple issues that I would like to just talk about with 
you, which pertains to, like many of my colleagues, I will be a 
little parochial and talk about south Florida. Although I think 
it will pertain nationwide, what I am saying. First of all, in 
terms of the construction projects and the harbors and the 
dredging, and trying to keep up with, now, these larger ships 
that are going to be on our seas and having the harbors to be 
able to accept these ships, and with the global competition 
means really literally across the country.
    I know in south Florida, all through Florida, north 
Florida, west coast, thousands, thousands, thousands of more 
jobs and huge economic impact, so a little concerning to me 
that that construction budget for those kind of projects is 
down significantly. Also on the shore protection, it's funny. 
Florida, I think, you know, I used to visit Florida when I was 
a kid. And I used to think of the beach as just a place to get 
a sunburn. But I have learned, very quickly, that it is about 
protecting properties.
    It is about a venue for a natural habitat, and a huge 
economic generator for tourism. And I see that the shore budget 
is down hugely from $130 million, and last year's budget to now 
$26 million. And $130 million doesn't even include the Sandy 
money. So that is very painful for those districts that rely 
on, especially on tourism and the shore protection for the 
property values. And the last issue I wanted to mention was our 
very precious Everglades in Florida, which is a natural eco-
system that was actually damaged by man.
    It is not only the water system for millions of Floridians, 
which goes, of course, to our life. It is natural habitat. It 
is for a multitude of species and a huge economic generator 
also because of tourism. And that funding seems to be on a 
drift downwards, almost half. Seventy-five million dollars is 
less than half of what was in the budget 2 years ago. So I will 
just asked you one question, if you could just address each of 
those issues, you know, from your perspective.
    Ms. Darcy. Thank you, Congresswoman. I will start with the 
Everglades, first. The Everglades budget, as you say, is less 
than it has been in the last couple of years; however, we are 
funding everything that we are capable of delivering in the 
Everglades in the 2015 budget. We were fortunate to get some 
ARRA money for Everglades projects, which helped us begin 
construction.
    At the moment, there are also some authorizations in the 
Water bill that are going to help us with the financing of some 
of the crediting provisions in Water projects and Everglades 
projects. I think all of that is a positive lean forward. We 
have broken ground on four projects in the last 4 years in the 
Everglades, so we are pretty excited about how the largest 
restoration effort in the world is progressing.
    Ms. Frankel. Could you just talk about the shore protection 
money?
    Ms. Darcy. The shore protection money, you did reference 
Sandy. We were able to use Sandy supplemental funds for impacts 
from that storm. That was one of the reasons it was down, but 
also at this stage, most of the renourishments are being 
funded, and some of them are being funded with carry-over 
money. And that's the reason that the beach renourishment 
number is down.
    Ms. Frankel. OK. Thank you for sharing that with me and the 
panel, and I thank you, Mr. Chair. I yield back.
    Mr. Gibbs. Mr. Meadows?
    Mr. Meadows. Thank you, Mr. Chairman. Thank each of you for 
your testimony here today.
    Ms. Darcy, I want to start with you. Twice the Supreme 
Court has made decisions, one with the SWANCC case, and the 
other with the Rapanos decision, and they've told agencies that 
there is a limit to the Federal jurisdiction under the Clean 
Water Act. And they have gone too far in asserting their 
authority. At least that is what those decisions would 
indicate.
    Therefore, to be consistent with the Supreme Court 
decisions, any new rule would necessarily have to leave some of 
that to the State regulations, and some of the waters 
previously regulated by the Federal Government would be 
regulated by the State. So my question to you is what waters 
that were previously regulated by the Federal Government, prior 
to the Rapanos decision, now are definitely no longer under 
Federal Government jurisdiction? To your knowledge, is there 
any that have been relegated to the State?
    Ms. Darcy. No, sir.
    Mr. Meadows. So we have two Supreme Court decisions in 
terms of jurisdiction. And, really, that has had no effect from 
a rulemaking standpoint at this point, to your knowledge?
    Ms. Darcy. Sir, the SWANCC decision as well as the Rapanos 
decision, in particular. The Rapanos decision requested that 
the EPA and the Corps of Engineers do a rulemaking in order to 
make clear what the determinations and what was jurisdictional, 
what was in, what was out. And that's what we are attempting to 
do in this rule.
    Mr. Meadows. So in your rulemaking, with that new 
rulemaking, what would be excluded from Federal jurisdiction 
and passed over to the State? Is it defined enough where there 
is no--or will it be defined where there is no ambiguity in 
terms of what is Federal and what is State?
    Ms. Darcy. We are hoping that's what this rule will 
clarify, but also, all of the exemptions that exist in the 
Clean Water Act will continue to exist, even if this rule goes 
final.
    Mr. Meadows. Well, but therein is the problem. We now have 
two Supreme Court rulings that have taken place because of the 
ambiguity thereof. And, so, I guess with this new rulemaking, 
what can the States say? OK. This is definitely our 
jurisdiction, and the feds say that it is no longer their 
jurisdiction; or is it still going to be a gray, murky area.
    Ms. Darcy. I don't believe it will be a gray, murky area. 
The Clean Water Act, for purposes of getting a permit from the 
Army Corps of Engineers, is a Federal Department of the Army 
permit that would be required.
    Mr. Meadows. Yeah. I have applied for them. I am very 
familiar with those. I have worked with the Army Corps for a 
number of years; and, therein is the problem, is where does 
that jurisdiction--because what I have found is that many 
times, whether it is the EPA or the Army Corps, they have a 
broad scope in terms of where their jurisdiction will be, and 
it many times overlaps with agencies in the State. And so there 
is competing areas of jurisdiction. So how are you going to 
help us clarify that so we have the efficiency within the 
Federal Government, and so that people who are applying for 
permits know that they go to you for this and they go to the 
State for something else?
    Ms. Darcy. Well I am hoping that through the public comment 
period we will be able to clarify that, if it is not clear.
    Mr. Meadows. Well, assuming that the public doesn't know it 
as well as you do, what would your recommendation be for 
defining that line so that we know? I mean you are familiar 
with the two Supreme Court cases. I can tell the way that you 
have talked. So how would you better define that to comply with 
those decisions, where you separate that jurisdiction between 
Federal and State?
    Ms. Darcy. Well, Congressman, for purposes of an Army 
permit, that would be Federal jurisdiction over that water 
because of the dredge and fill requirements.
    Mr. Meadows. But according to--you know. That authority has 
gone too far. Asserting their authority has ``gone too far.'' 
So----
    Ms. Darcy. I think the authority, if I may, that is being 
referenced would be the authority to regulate a particular kind 
of water, not necessarily the State's authority to do so.
    Mr. Meadows. So what waters would you not regulate anymore, 
as a result of those two Supreme Court cases?
    Ms. Darcy. This proposed rule would continue to regulate 
those waters that have already been part of the Federal 
regulations.
    Mr. Meadows. So you wouldn't relinquish control over 
anything?
    Ms. Darcy. Well it would depend as to how the other waters 
is eventually defined. That's one of the areas, one of the 
seven areas within this proposed rule where we are seeking 
public comment in order to make a determination about what 
other waters would be jurisdictional under the Clean Water Act.
    Mr. Meadows. We will submit a few other questions for the 
record. I would appreciate the Chair's indulgence.
    Mr. Gibbs. Ms. Kirkpatrick.
    Mrs. Kirkpatrick. Secretary Darcy, thank you and your staff 
for meeting with me, listening to my constituents and funding 
really critical projects in my district. On behalf of the 
thousands of people and businesses that are going to be helped 
by that, I thank you. My question today is about delays. In the 
Water bill, the House version, we set a maximum of 3 years to 
complete various studies.
    And, as you know, the Rio de Flag project is coming up on a 
sixth-year anniversary waiting for the updated, limited 
reevaluation report. Do you have a status update on where we 
are with that? And then just would like to know your thoughts 
about how we protected against future delays in Chief's Reports 
and updated economics.
    Ms. Darcy. I have some information on the Clay Avenue Wash 
Detention Basin.
    Mrs. Kirkpatrick. Yes.
    Ms. Darcy. Is that the piece of Rio de Flag?
    Mrs. Kirkpatrick. Yes.
    Ms. Darcy. The contractor will be mobilizing this spring, 
and we anticipate construction completion in the fall of 2014.
    Mrs. Kirkpatrick. OK. That is good news. Thank you. Any 
thoughts about how we can prevent future delays to Chief's 
Reports, either one of you?
    General Bostick. One of the things I would offer is we have 
taken a real broad look at our portfolio of feasibility 
studies. When we started to review 2 years ago, we had about 
600. We have that number down to about 168, and we have looked 
at which of these projects has a non-Federal sponsor. Which 
projects do we think we can actually find a Federal interest? 
And we brought that number down to about 160. Well over 100 of 
those are 3 <greek-e> 3 <greek-e> 3 compliant, which is good 
news.
    There is a small number, less than 10, where we are going 
to have to do waivers, because they can't get in under 3 years 
or $3 million. And there are about 30 to 40 that are considered 
legacy projects, where it was just too far along for us to 
bring the feasibility report under 3 years and $3 million; but, 
we think we are making great progress. And we are doing a lot 
of this internal to the Corps.
    We are working with our interagency partners, but it is 
really going to take a team effort. Because a lot of decisions, 
as you know, are outside of our direct control, so we are 
working well with the interagency.
    Mrs. Kirkpatrick. Thank you. It sounds like you are making 
good progress. Congratulations! I yield back.
    Mr. Gibbs. Mr. Mullin.
    Mr. Mullin. Thank you, Mr. Chairman. You know we have 
really learned to value the Corps in my district, especially, 
with our navigational channel that runs up. And we are able to 
have one of the largest inland water ports in the country 
because of the Corps and the navigational channel. And we 
understand the burden that is put on you with restraints as far 
as money being allotted to you through the budgets and through 
the idea that the repairs are in some critical needs.
    And I know the Corps would like to get them done. So I 
appreciate the partnership that we have been able to work with 
the Corps, but don't always agree on everything. But I know 
that we definitely are trying to work together. And so, 
General, just to let you know that Colonel Pratt in Oklahoma 
has done a phenomenal job. Colonel Teague who proceeded him did 
a phenomenal job too, and we appreciate their willingness to 
work with us.
    Ms. Darcy, we understand that the Corps is undergoing a 
rulemaking on water supply. Is that correct?
    Ms. Darcy. We are considering doing rulemaking on surplus 
water supply, yes.
    Mr. Mullin. I understand this has been going on for quite 
some time, so it is more than a consideration. You guys have 
been talking about it. We had your staff in my office, 
actually, last week. We had requested to meet with him; and, 
quite frankly, we have been trying to get this meeting for 
several, several months for, in fact, a big part of even last 
year, just to find out exactly what that rulemaking is, because 
we understand that you guys are trying to redefine the pricing 
structure of the water and try and identify if you have surplus 
water and what is the best use, how do you best use the 
surplus. Is that correct?
    Ms. Darcy. Yes. The rulemaking we are considering would 
establish what a reasonable price is for surplus water. Under 
the Flood Control Act and the Water Supply Act we are required 
to set a reasonable cost for that; and, currently, we don't 
really have one. So we need to go out for public comment and 
to----
    Mr. Mullin. When is it you plan on going out for public 
comment? Because, if I understand, you guys have been meeting 
on this one particular topic for at least 8 months.
    Ms. Darcy. Yes, and quite honestly, it has been longer than 
that.
    Mr. Mullin. OK. Well I was aware of it about 8 months ago.
    Ms. Darcy. We are still under development within the 
agency, and I am not certain about what the actual timeline for 
releasing a proposed rule on this would be.
    Mr. Mullin. Here is my concern about this, Ms. Darcy. 
Underneath the latest example of the waters of the U.S.--the 
rulemaking, you know--we were assuming that was going to come 
up for public opinion, too, and we thought the States would 
have some opinion in that. And, what we did is we completely 
sidestepped the States, and there was no rule.
    The rulemaking came out and the States were sitting there 
having to deal with it, which, I believe--if I'm not mistaken--
that the 10th Amendment, that is what gave the States the 
rights, the right to understand and even have first shot at 
regulating their State. And so by you guys side-stepping and 
going right past them, well, how can we even trust that the 
rulemaking on this water pricing is even going to be taken into 
consideration?
    You have been meeting for over 8 months, and yet you still 
haven't brought it up for public opinion. In fact, most people 
aren't even aware of what is going on.
    Ms. Darcy. We have been meeting with stakeholders and those 
concerned.
    Mr. Mullin. Who have you met with? Because we have been 
trying to get a meeting for, like I said, 8 months, and you 
just came to my office last week, which I appreciate your staff 
doing, but I believe that probably was because of this hearing 
coming up.
    Ms. Darcy. We have been meeting for over a year with other 
stakeholders, including the State of North Dakota and others 
who have been interested in this issue. And any rulemaking that 
we do would be a proposed rulemaking, which would have at least 
a 90-day comment period for the States and other stakeholders.
    Mr. Mullin. Going back to the waters of the U.S., are you 
going to work with the States?
    Ms. Darcy. Yes, sir.
    Mr. Mullin. When are you planning on doing that? I mean if 
the rulemaking is already out, at what point are you going to 
actually allow the States to have input on their own property?
    Ms. Darcy. It's a proposed rulemaking, and so there is a 
90-day comment period for all stakeholders, including States.
    Mr. Mullin. OK. Real quick before I run out of time, 
existing permits on farmlands with the navigable waters, my 
concern is with the broad reach that you just took out a 
redefining sum of the streams or nonstreams that's going to be 
classified under the Clean Water Act, that farms are going to 
be caught up. And underneath the rulemaking when I read it, I 
understand it says existing permits aren't going to be 
affected. What about farmlands that are not currently having to 
get those permits.
    Ms. Darcy. Congressman, all of the existing exemptions for 
farming, silviculture and ranching in the current Clean Water 
Act, those exemptions remain in place. In addition, we have 
done an interpretative rule with the Department of Agriculture 
and EPA, stating what additional farming practices would be 
exempt. Some of those farming practices have come into 
existence since the 1972 Clean Water Act. So we list what those 
exemptions will continue to be.
    Mr. Mullin. I appreciate it. Thank you.
    Mr. Gibbs. Ms. Norton?
    Ms. Norton. Thank you very much, Mr. Chairman, and thank 
you Ms. Darcy and General Bostick. After a number of years we 
finally passed a Water Resources Development Act amidst a fair 
amount of self-congratulation, which I think was well-deserved. 
But now we are down to the hard part when we meet head-on the 
issue of funding in this bill.
    I have a couple of questions on a formerly contaminated 
site for General Bostick and another question--these are brief 
questions--on the 17th Street levee. I very much appreciate 
General Bostick that after some concern in one of our 
communities about perchloric contamination in the groundwater 
that the Army Corps is going to dig a well to try to trace this 
contamination. They somehow have picked a spot that is in a 
park, a park that is partly maintained by the community with 
trees and other vegetation that the community itself has added.
    I understand that the Corps has not made a final decision 
on where to place this well, as much as the well is needed, 
considering the size of the community and the fact that there 
are 53 wells, I understand, located in the area. And some of 
them are in roads. The community is asking that this well be 
put in a roadbed or other appropriate location, and not in a 
park, which according to all of their experts, will never be 
able to be brought back to its present site if the well is put 
there. I am asking you, General Bostick, if you would work with 
the community to find a mutually agreeable site for this well 
in Spring Valley, looking at roads, and for that matter at 
other nearby locations.
    General Bostick. Rep. Norton, we have looked at this very 
closely. I am happy to continue working with the community to 
try to find the most agreeable location based on the technical 
analysis that our experts have done. I am informed that the 
ideal spot is this location on the island, the public island 
that you are talking about. Other locations are in people's 
front yards and back yards.
    Ms. Norton. Well, obviously, we don't want that. That is 
why I said ``mutually agreeable.''
    General Bostick. Right, right.
    Ms. Norton. And all I am asking is that you continue to 
work with the community if you don't want it in someone's back 
yard or front yard. You surely don't want it in the front yard 
of the community itself----
    General Bostick. Certainly.
    Ms. Norton [continuing]. In a park that it is maintained.
    General Bostick. We will look into it.
    Ms. Norton. Look. And I understand the technical 
difficulties. All I need is a back and forth with the 
community, because as the community sees a good faith effort, 
and that's all that's there, I know the ideal site. But an 
ideal site doesn't necessarily make it the best site for all 
concerned. So I appreciate your commitment to continue to work 
with them.
    General Bostick, I wrote you, personally, a letter, after 
working a great deal of time with the Corps before you began 
the latest evacuation in Spring Valley. Because for the first 
time--and this community has been very tolerant--you understand 
that Spring Valley is a community of gorgeous homes and 
taxpayers who--because frankly of mistakes made by the Corps--
have had their community built on without knowing it was a 
contaminated site. They have been doing work there for almost 
20 years.
    I appreciate how the Corps has cooperated with my office 
and with the community, since this contamination was discovered 
and since the Corps left twice and had to come back, because 
the contamination was not cleaned up. Now they are a really 
pivotal site. Across from the site is a home of a family that 
has two children, 1 and 5 years old. I asked if they could be 
temporarily located. You denied that this family, I think, for 
reasons that perhaps are understandable, were so concerned that 
they have rented an apartment on their own.
    Now your office said it is going to take 6 months longer 
than planned. Imagine. The community now hearing that there is 
more extensive debris across from their own home, and just last 
week alone you found intact glass containers in large amounts 
at the American University experiment station. This family is 
paying rent now on top of a mortgage in order to protect their 
children.
    General Bostick, do you agree that children of this age, 1 
and 5, are more susceptible to diseases, including toxins, from 
toxins and glutens, that may affect their brain and immune 
system at this developmental stage? Do you agree that that is a 
concern?
    General Bostick. Representative, I am always concerned 
about safety. I am not a doctor, so I couldn't comment on 
whether they are more susceptible. But I will tell you that we 
are very concerned about safety. We have taken all the 
precautions, not only within the Corps, but in talking to other 
organizations to make sure what we are doing is safe and we 
made the determination that we would not be able to support the 
request to relocate the family based on----
    Ms. Norton. General Bostick, in light of the fact that the 
time is now been elongated, you found even more debris than you 
expected. Would you take another look? Would you take another 
look at this matter?
    General Bostick. I will take another look.
    Ms. Norton. Thank you very much, General Bostick.
    Mr. Gibbs. Ms. Capito.
    Mrs. Capito. Thank you. I want to thank you both for being 
here. I appreciate your service to the country. I know your 
areas of responsibility are very difficult. We have heard a lot 
of discussion about the Corps along with the EPA redefining, 
our new regulations to define the waters to the United States. 
And this definition would expand those waters to regulations 
permitting under the Clean Water Act.
    The Corps' ability to consider applications for 404 permits 
right now is a huge issue in my State of West Virginia. The 
Huntington Corps does a great job, but they are really 
stretched. And my concern is that we have a professional staff 
and an experienced staff in West Virginia and around the 
country who are working hard to consider these permitting 
applications that we have right now.
    If you are expanding that definition, my concern is in your 
budget request you are requesting flat funding of $200 million 
for the regulatory program. We have a huge backlog and a lot of 
waiting periods before we are able to satisfy or to obtain 
permits. How are you going to deal with this enlarged playing 
field, so to speak, of more 404 permits when already we see a 
lot of frustration with the backlog that currently exists. 
Madam Secretary?
    Ms. Darcy. Thank you, Congresswoman. The proposed rule will 
not be finalized for several months, so the potential for the 
increase is a little bit of a ways away. However, you know, 
within the regulatory program, we are going to have to look at 
what increased demands there will be if the rule goes final and 
have to adjust as best we can within our limited budget.
    Mrs. Capito. So, basically, what you are saying is you 
haven't really accounted for that yet, for the expansion, 
because you know you are going to anticipate a greatly expanded 
application procedure. Correct?
    Ms. Darcy. We anticipate an initial increase in some permit 
applications; however, we believe that the certainty that's 
going to result if this rule goes final will help us down the 
road, because people will know. The applicant will know what's 
jurisdictional and what is not and what is going to need a 
permit, and what will not. And, right now, there is so much 
uncertainty about that, that has created a great deal of 
increased work.
    Mrs. Capito. Well I guess I was speaking more about ones 
that already know they are within the jurisdiction and the 
backlog that we are seeing in the time that it takes to work 
these. And some of them are very, very difficult, obviously. 
So, you know, I still think the permitting process is going to 
become much more bogged down in the future with this new, 
expanded definition that you are trying to seek. Would you 
agree with that?
    Ms. Darcy. I think initially we may see some increase in 
the request for applications, but I think the long-term impact 
is going to be increased certainty. And the amount of waters 
that are currently covered are ones that will be covered, but 
the certainty that this rule will provide will help us. You are 
right. There is probably going to be an increase initially.
    Mrs. Capito. Well we are going to have to speak to the 
certainty issue. I mean we saw what has happened to the permit 
that was awarded and went through the procedure with the Corps 
with the Spruce permit that was overturned. I don't think that 
is really leading us to much certainty in the area of the 
country where I live right now.
    What about in terms of what kind of considerations when you 
are putting forth the rule? We have, obviously, a lot of 
manufacturing, as we do across the country. We have Essrock in 
Martinsburg, who has voiced concerns, and I am concerned as 
well. Have you looked, as you are expanding this definition, 
have you looked at all at what the job impact would be, the 
manufacturing job impact would be? Is that part of the 
consideration when you are looking in this jurisdictional role 
that you put forward?
    Ms. Darcy. Congresswoman, there was an economic analysis 
done considering what the administrative costs would be as well 
as what the benefits would be of this rule.
    Mrs. Capito. So that would be the jobs that it would cost 
to administer the rule. Is that what you are saying? Or, does 
it say even if certain folks are now going to be pulled into 
this with a lengthy and expensive process, what that is going 
to do to the manufacturing base or what it could do to their 
ability to expand their manufacturing jobs? Is that a 
consideration?
    Ms. Darcy. I would have to--I am not sure.
    Mrs. Capito. OK. OK. General, just a quick question. We 
have a project in West Virginia with a coal company on the King 
Coal Highway, and the Corps has worked very hard to try to work 
with the permitting issue there to try to do a public-private 
partnership, which would result in the construction of a very 
difficult piece of road while satisfying the definitions of the 
Clean Water permit with the Corps. Are you encouraging public-
private partnerships through the Corps? I mean we are in leaner 
times now. Think it makes a lot of sense? Is that an initiative 
the Corps is taking on?
    General Bostick. Absolutely, Representative. In fact, this 
month I have a meeting with several prominent leaders in 
public-private partnership, both in Government and civilian 
CEOs that are gathering together to try to determine how we can 
do this more within the Corps.
    Mrs. Capito. I would encourage that and I would encourage 
this project too to be moved forward, because in southern West 
Virginia, it is much needed. Thank you so much.
    Mr. Gibbs. Mr. Sanford.
    Mr. Sanford. I thank you, and I thank you for what you do. 
I am going to try to run very quickly through five questions in 
5 minutes. So it will be a little speedy here. First, just to 
check up, as far as I know, the Post 45 Charleston Harbor 
Feasibility Study is on budget and on time. Anything I need to 
know new from you all's perspective on that one?
    Ms. Darcy. No, Congressman, other than the fact that it's 
one of our studies that we look to as being compliant with our 
3 <greek-e> 3 process, which was referenced earlier. We cut the 
time off this study. We cut about $8 million off of it. So it 
is on track to go.
    Mr. Sanford. Good. There have been, I guess, there was talk 
within the WRDA bill on authorization and still allowing for 
construction. In some instances, I think it was touched on a 
manager's amendment in WRDA, but it's still a little bit 
ambiguous and I didn't know if you all were prepared to issue 
guidance on that particular front, wherein you're in that sort 
of interim time period and not quite sure what comes next.
    Ms. Darcy. I'm not sure of your question. Is it what is 
going to happen to projects between authorization and the 
passage of a WRDA bill? Well, currently, if a project is not 
authorized in WRDA, we can't budget for construction. And, as 
you know, in the House bill, it's----
    Mr. Sanford. Well, I guess what I am getting at is if a 
project's been authorized, but not yet appropriated, and if 
there are backup State funds that say, look. We have a backup 
in terms of funding sources. Is there any way we continue to 
move ahead in anticipation of appropriation?
    Ms. Darcy. Yes, sir, if it is an authorized project we can 
accept contributed funds. We can accept advanced funds or 
accelerated funds, if we have a cooperative agreement with the 
local sponsor.
    Mr. Sanford. I will follow back up with you, because there 
is some level of ambiguity, at least being read to the TVs back 
home on some of that based on some of what's going to 
Charleston. I am going to follow up with specific questions on 
that.
    On the 3 <greek-e> 3 going back to what you mentioned just 
a moment ago, at times, though, EPA seemingly will still gum 
the works up. So it is good in theory, but at times in 
practice, I guess--maybe that's why Charleston stands out--is 
the project that is working on that front. Is there anything 
that can be done to further expedite that process when some 
Federal agencies come up and maybe slow up what you guys are 
working on?
    Ms. Darcy. We are trying to, in part through the 3 
<greek-e> 3 <greek-e> 3 as well as with other Federal agencies. 
The earlier we can work with the other Federal agencies in the 
project development process, the easier it is going to be so 
that at the end of a study process, we are not confronted with 
problems or concerns that we didn't anticipate that may in some 
ways slow it down or in some way derail the process. We are 
trying to do that.
    Mr. Sanford. I will come back with further questions on 
that, because I am trying to stay within my prescribed 5 
minutes. Two other quick questions, though. One is going back 
to macro. There has been some concern, I guess for some time, 
on cost-benefit analysis within the Corps and a belief that, 
you know, costs are understated and benefits are overstated. I 
think there was a Pentagon inspector general report to that 
effect. There was a GAO report to that effect. Is there 
anything that you all would point to in terms of changing that 
process or moving a foot within the Corps to further calibrate 
based on those two studies?
    General Bostick. We don't have, necessarily, another study 
that we are looking at. But I would say that we are looking at 
budgeting and how we budget as part of our overall civil works 
transformation. And within that analysis of how we budget, I 
think we will find methods to become more efficient, effective 
in the BCR. But we don't have anything specifically, we can 
tell you today.
    Mr. Sanford. I will follow up with additional questions. 
Here is my last one though in my 5 minutes, which is going back 
to what you just said on budgeting and better budgeting. As I 
understand, the Corps owns about 7 million acres. I don't know 
if that is true or not, but that is what I have been told. It 
is the fourth largest agency out there in terms of land 
holdings in the aggregate.
    One, is that true? But, B, and maybe that's not the right 
place to look, if you look at the overall numbers of the 
country. We have a 5-percent fiscal gap, which means for 
agencies ultimately there is a much bigger gap in getting to 
break even. If you were to point to the least efficient program 
that you administer or the biggest cost savings that you think 
could be found within the Corps, it would be what?
    Ms. Darcy. That's a tough one.
    General Bostick. I think we would have to come back to you 
on that. We try to focus on the programs that are highest 
priorities and spend a lot of time putting our energy and our 
money there. But we would come back to you on what we think 
might be one we're probably not spending as much time on and 
not as effective to the good of the Nation.
    Mr. Sanford. I would appreciate that. Thank you for your 
time.
    Mr. Gibbs. Ms. Hahn.
    Ms. Hahn. [Inaudible.]
    Mr. Gibbs. Turn your mic on.
    Ms. Hahn. Thank you, because I am saying something nice 
about you.
    Mr. Gibbs. You used up your time on that.
    Ms. Hahn. Yeah, I know. But thank you for your opening 
remarks about the Harbor Maintenance Tax. And, Assistant 
Secretary Darcy, thanks for being here; General Bostick. I do 
have a statement I am going to put into the record about 
Compton Creek in Los Angeles. I understand in this budget the 
Compton Creek project will be fully funded.
    I just wanted to ask a couple of questions about the Harbor 
Maintenance Tax. I just would like to know from your point of 
view why the administration is not advocating for full 
utilization of yearly receipts. We know that we will get about 
$1.7 billion in yearly receipts, and the President is 
advocating for just $1 billion to be spent.
    So that's $700 million left on the table, yearly. So I just 
wanted to know from your perspective why do you think we are 
still not putting forth the full utilization of the Harbor 
Maintenance Tax.
    Ms. Darcy. Congresswoman, within the scope of the Corps of 
Engineers budget, the $1.7 billion that you referenced within 
our $4.5 billion-dollar cap, $915 million from the fund is all 
that we are going to be able to use at this time.
    Ms. Hahn. I remember in one roundtable that we had where I 
asked you if we fully utilized the receipts of the Harbor 
Maintenance Tax how long would it take to have all of our ports 
in this country fully dredged to their authorized level. And 
you actually threw out a figure of 5 years, which is, again, 
something we should look at in terms of how do we keep our 
ports competitive and maintained. And, you know, particularly 
with the Panama Canal coming online, I just believe this is one 
piece of our economy and job creation that is right there 
within our grasp, and I am still going to continue to advocate 
for that.
    Let me ask you what the administration's view is on more 
equity for our ports. One of the things I've also tried to 
advocate for is a guaranteed minimum that would come back to 
each port. The ports of Long Beach and Los Angeles contributed 
about $263 million annually, and we get back about $263,000. So 
I know we are obviously a donor port, and I believe in the 
seamless network of ports in this country, however, would like 
to see a little more equity as we go forward.
    I would love to see a 10-percent guarantee back to the 
ports where the tax is collected. What is the administration's 
view on more equity going forward?
    Ms. Darcy. Congresswoman, the Harbor Maintenance Trust 
Fund, as you know, is an ad valorem tax on imports, and that 
money all goes into the overall operation and maintenance of 
the entire system. There are some ports that don't need as much 
operation or maintenance dollars as others--and so it is the 
need nationwide that we have to look at in making the decisions 
on how the funds are going to be apportioned. And it is a 
donor-donee sort of similar situation like that.
    Ms. Hahn. But you look at the ports of Long Beach and Los 
Angeles. I like to call them America's port, since 44 percent 
of all the trade coming to this country comes through those 
ports. If you want to talk about projects of national 
significance, it is certainly the work done at those ports. So 
I still think that would be something we ought to aim towards, 
and, sure. I'd like to see 50 percent go back to the ports 
where it was collected, but I know that is unrealistic. But 
something like a 10-percent minimum guarantee, I think would be 
important, particularly--the next question I'm going to ask--if 
we can work on an expanded use of the Harbor Maintenance Tax, 
particularly for those ports who have already dredged to their 
authorized level.
    What is your view on using some of that money for expanded 
uses within the harbor?
    Ms. Darcy. It is currently under law limited to just 
operation and maintenance in the water--no port side 
development. I think there are other programs within the 
Federal Government, things such as TIGER grant program within 
the Department of Transportation that can be used for those 
kinds of additional enhancements to the port.
    Ms. Hahn. But, again, that is another competitive process, 
again, when we are already collecting the tax from these ports 
and the ports that have already done their dredging; seems 
reasonable that they would be allowed to use this money for 
other uses within their ports. Of course, I am advocating for 
the last mile, as well. I think if we want to talk about why 
cargo is diverted from some of our ports, it is because of 
landside congestion, and not necessarily what is going on 
within the harbor. How do you feel about that?
    Ms. Darcy. In order to expand the usage of the tax, 
legislative direction would be required for that expansion to 
occur.
    Ms. Hahn. I mean, let's face it. The way we stay 
competitive in this country is for that cargo to come in and 
out of our ports as quickly, as efficiently, and as effectively 
as possible. That cargo needs to come off the ships, onto the 
rail or trucks and to their intended destination quickly.
    Mr. Gibbs. Mrs. Napolitano.
    Mrs. Napolitano. Thank you, Mr. Chair, and being the last 
one, maybe I will get in a few words here.
    Assistant Secretary Darcy and General Bostick, thank you so 
much for your appointees to the L.A. area in the last--I don't 
know--10 years that I have been very active with the Corps. The 
Colonels Compton, Toy and Magnus and their Deputy Van Dorf, has 
been excellent to work with.
    We also want to say that we have been very happy that you 
are now looking at water conservation measures in the dams, 
which are critical to our Los Angeles area--since the drought 
is really hitting us more than we thought it could for the last 
several years--in preparing for the sediment removal that will 
allow for the capture of more rain, since we have very little 
in southern California.
    I will note that our water agencies from control districts 
and the local leaders have been urging the court to take 
measures for many years. And now that you have adopted some 
emergency conservation measures in that general area of Los 
Angeles, we have picked up 22,000 acre-feet of water conserved. 
We should be doing more of this, and that is hopefully where we 
can lead to being able to have the Corps' mission include the 
water retention and the sediment removal from the dams to 
capture more, and maybe even raising the levees and expediting 
the process by which we check the dams' leakage, et cetera.
    As you well now, we have narrows Whittier Narrows that we 
have been working on for about 10 years. I would like to have 
an idea of where the Corps is on the Whittier Narrows and the 
Santa Fe Dams with contributed funds. If you remember, there 
had been a time where they wanted--I have an agency that wanted 
to pay for a review, and there was no way to be able to get the 
Corps to accept that funding. So now that we have that ability 
and it is the contributing funds agreement for water 
conservation feasibility studies and more short-term water 
conservation deviations.
    General Bostick. At the local level there is agreement to 
study the water conservation for accelerated funds and they are 
negotiating that now.
    Mrs. Napolitano. And when can we see some timeframes so we 
have an idea. Because we have so very little water, so very 
little rain, the more expeditiously we move towards being able 
to capture that, the between off we are going to be addressing 
the drought in southern California.
    General Bostick. I will follow up with the timing. I really 
don't have the details on that.
    Mrs. Napolitano. I would really appreciate it. The other 
area is the RFPs for Open Bidding Process to removal of the 
sediments of the dam, especially, particularly, the Santa Fe 
dam, because it is downstream. And if they are able to remove 
the sediment, they would be able to capture more water in the 
dams where the water is, so more able to be stored. But will 
the sediment have enough value to pay for the removal? If it 
doesn't, then will the Corps be able to pay for that removal of 
the pile.
    General Bostick. We will finish the request for proposal. 
That will be done this month. But in terms of funding it, due 
to funding limitations the sediment removal was not included in 
the 2015 budget.
    Mrs. Napolitano. It is not included. So that won't happen 
then for this year or next year.
    General Bostick. That is my understanding.
    Mrs. Napolitano. And in the meantime, we are not preparing 
our areas for the drought, or at least conserving that water. 
Is there a way we should be able to move up and expedite the 
process? And I know funding is an issue.
    General Bostick. We can always look at methods for trying 
to accelerate the process. I think in the end, in this case, it 
is going to be a question of funding, and we have got to really 
go back and take a look at once the RFP is completed, in future 
years, something could happen. And in the interim, I'd say we 
continue to work for the local sponsors and the local 
communities to see what options we can develop together working 
forward.
    Mrs. Napolitano. Well I look forward to sitting with you, 
and then figuring out, because there are some local partners 
that are interested in helping in other areas, and this could 
be one of the things that they would be very helpful in being 
able to address the funding issue. And then there is an area 
where, apparently, the sediment is going to be able to get a 
buyer, if you will. We are not sure that our fee, I believe, is 
being developed by them, or actually submitted by them.
    They may have other folks submitting these RFPs, but by the 
same token, we do not know whether they are going to be able to 
have enough ability to have that sediment pay for itself. And 
there is the issue of an area that the Corps owns, a particular 
area that develops all this aggregate, if you will, is willing 
to make a deal, wanting to sit down with the Corps to see if 
they can exchange these areas of helping each other by allowing 
them to mind that area and being able to help the sediment 
removal for use by them. And I am not sure, exactly.
    I'd have to sit down with you, if you don't mind, and go 
over this. And I think, Ellen, you know about that. How do we 
work with the entities that are willing to help find a 
solution, if you will, to address some of the issues that are 
inherent in that particular area?
    General Bostick. I think in this day and age we are all 
looking for different opportunities and different ways to think 
through solving these complex issues that we have. And if we've 
got willing partners that think they can purchase the 
sediment--use it for different reasons--and if there's a 
different type of funding mechanism that we could work with the 
Congress in getting the approval on, then we would be open to 
suggestions on that.
    Mrs. Napolitano. But the approval has to come from 
Washington. It can't be at the local level, and that is also a 
big delay in getting that processed. Am I correct?
    General Bostick. Well if it's going to be an authorized 
project and using Federal dollars, then it would involve the 
Congress and folks in Washington.
    Mrs. Napolitano. Thank you, Mr. Chair. I'd like to submit 
some of the questions in writing.
    Mr. Gibbs. Thank you, representative.
    Mrs. Napolitano. Thank you.
    Mr. Gibbs. Secretary Darcy, I want to just follow through 
here on a couple of things. So, first is when you are dealing 
with the rule, the Supreme Court decisions on the navigable 
waters in the United States or waters in the United States, it 
is quite clear in Rapanos that the Federal jurisdiction is 
limited under the Clean Water Act, and essentially the Supreme 
Court said that you need to pull back.
    And in your exchange with Congressman Meadows, talk about 
clarity, you know, it is muddier than it has ever been, if you 
are interested to do that. And I would also imply to you that 
Corps--we have budget constraints and budget realities, and we 
are trying to figure that out. And I know the ranking member's 
comment about the budget restraints and the other members', but 
I know the two generals sitting next to you there, behind you, 
are probably a little nervous, because they don't need any more 
work to do.
    And my question is on this regard, it is implied that the 
Federal Government has to move into these other areas because 
the States aren't doing it. And that's kind of the implied, 
that I am getting from that, is because the last Congress, when 
we had State EPA directors in here, we heard so much about how 
frustrated they are, and they are from both sides of the aisle 
about the overreach of this administration and this EPA. And so 
your ability to not answer Congressman Meadows about what 
waters would be relinquished of Federal jurisdiction in regard 
to the Court order, basically, I have got real concerns about 
that.
    So, if you would, quickly answer the question about what 
the States are doing and why the Federal Government thinks they 
have to get more involved in these other waters, because to me 
that looks like a big power grab by the Federal Government.
    Ms. Darcy. Congressman, we are not extending the reach of 
the Clean Water Act to new waters outside of what is being 
required to have a permit.
    Mr. Gibbs. But if you are going to define what is 
significant nexus is, you have the ability to extend that, but 
by how you define what significant nexus is.
    Ms. Darcy. The significant nexus determination would need 
to be made on a case-by-case basis on other waters. That 
significant nexus determination as well as what other waters 
would be covered by the Clean Water Act as part of what the 
proposed rule is asking for public input on and public 
conflict.
    Mr. Gibbs. Well, to me, anyway, this issue is it is 
becoming less clear way of removing. So that is my word of 
caution on that. I want to move on to another area. We have 
another issue, and hopefully you are aware of up in Cleveland, 
Ohio, and the dredging of the harbor port there. In the Omnibus 
Appropriation bill, Congress appropriated $7.8 million to get 
the dredging done. Dredging is scheduled to be done here in a 
month or so. It is very important that it gets done.
    We have one, large steel company that is bringing in 
lighter loads of iron ore, and they won't be able to get enough 
supply in there. And there is a possibility that will shut down 
their operations, and nearly 2,000 jobs will be idled. And I 
guess my question is we are having a little back and forth 
about how the EPA and the Corps--the dredging that occurs there 
every year--it is going in the CFF, the landfill, because it 
has got metal, heavy metals PCBs--you know--things that you 
don't want to put out in the lake, apparently. My first 
question is why did the Corps only bid open lake disposal, when 
they should have known that it is highly likely that they won't 
get the 401 certification from the Ohio EPA?
    Ms. Darcy. Congressman, we have requested, as you say, the 
401 water certification from the Ohio EPA. We have in other 
places within the State of Ohio and in Lake Erie. We have done 
open water disposal for Toledo.
    Mr. Gibbs. Yes, Toledo, but I don't believe that the--I 
think it is more of a phosphorous issue, a nutrient issue. I 
don't think the Cuyahoga River, the river that caught on fire 
four times a few years ago, you know, there's been apparently 
issues with the PCBs and heavy metals. And I think the issue 
that I am hearing, the discrepancy between two agencies is the 
protocol that was used in the sampling. So I guess what I am 
trying to say is dredging has to happen. OK? And the two 
agencies have to figure out what's best.
    Now, we know there is at least a year of capacity in the 
CFF, the landfill. And then also the Port of Cleveland has 
spent $4 million to work on another disposal site under the 
section 217 authority. And, you know, by the Corps moving 
forward with open lake disposal proposal, are they 
automatically saying no to moving forward with the other 
disposal area for when they get past this next year?
    General Bostick. Chairman, we've done our meeting with the 
experts in Cleveland today. We believe there is a real science 
to this, and our scientists have looked at this. What we like 
to do is collaborate with the team in Cleveland, and we would 
like to come to some mutual consensus. We know we have to 
dredge. We know we are funded for that, and we know the impacts 
if we don't. But we would like to understand the differences of 
opinion, and then try to find a solution to resolve it. But, as 
you say, we are coming to a point where we have to make a 
decision because we are running out of time in these confined 
disposal facilities. And, as you say, within a year or more, we 
will not have any room.
    Mr. Gibbs. Well, what is going on with the other site, 
where the Port Authority has spent $4 million to, I think, 
develop another site under 217 authority? Do you know the 
status of that?
    General Bostick. I am not aware of the details on that. But 
I will take a look into it.
    Mr. Gibbs. I think everybody is trying to move forward, and 
we have to move forward, and--but we want to also be careful 
that we protect the lake out there.
    The other area of that that I just don't really understand, 
either, we are dredging 5 feet of sediment out every year, at 
least 5 feet. And is there anybody or--looking at how all that 
sediment--that seems like a lot of sediment getting into the 
harbor there--to mitigate the flow of sediment, or is it just 
the shoreline itself collapsing in? I mean that seems like a 
lot of sediment, and then still be heavy with, you know, 
hazardous materials. It seems like, to me, that there ought to 
be some other mitigation efforts, and I am puzzled, I am a 
little bit puzzled by that.
    General Bostick. I can't talk to the amount of sediment, 
but in terms of the quality of the sediment from our 
perspective, I know we are in disagreement with some on this, 
but 80 percent of it we feel is clean enough to put in open 
water.
    So, I can have our guys look at why there is continued 
sediment, but we have been at this for about three decades now, 
and in that area, put in about a billion dollars' worth of 
money in confined disposal facilities. And we are at the point 
where we must make a decision. In view of that, I think we are 
going to continue to work with the locals, and I am sure we can 
find a solution that will move us forward in the right way.
    Mr. Gibbs. Well, I just want to impress on you the 
importance that dredging stays on schedule, and we need to get 
this worked out with how EPA--and also, you know, protect our 
vital resources there in northern Ohio.
    My time is up. I just had--want to make a couple other 
quick comments, since we are just the only ones here. You know, 
the permit revocation, the Spruce Mine issue, 404 permits, have 
we seen an increase of 404 permits, applications? And have you 
seen--what is the status? What is going on with that?
    Ms. Darcy. Are you asking about 404 permits regarding 
surface mining?
    Mr. Gibbs. Just----
    Ms. Darcy. Or 404 permits, overall?
    Mr. Gibbs. In general, because I am a little nervous. I am 
disappointed that the U.S. Supreme Court didn't take this up, 
because I think it sets a bad precedence, because my 
understanding, the permit, you know, was revoked, not vetoed. 
You know, the EPA has authority to veto permits during the 
process, but they revoked the permit 3 years after it was 
approved, after the entities, you know, invested hundreds of 
millions of dollars to start the operation up. You know, that 
sends a bad precedence about certainty.
    And so, I am very concerned about that. And if we--that is 
why I think the Supreme Court should have took it up. And so 
now, you know, depending on what the status is on this 
permitting process, Congress might have to take it up.
    But I guess I am asking, you know, what the status is of 
404 permits. Have we seen more, less? And how many are pending?
    Ms. Darcy. I would have to get back to you on that. But do 
you want, like, in the last year or two, or kinds of permits, 
or just a 404, overall? We can get you that information.
    Mr. Gibbs. We will talk about that. But I am really 
concerned about that, because it is--I am also concerned that, 
you know, people might not even be applying. It is stifling 
economic activity, because the uncertainty of being shut down, 
even though they weren't in violation of their permit.
    And, as I recall from our previous hearings last Congress, 
the State of West Virginia, EPA, and I think even the Corps 
themselves, said they weren't in violation of the permit. So it 
was more of a political agenda.
    So, Mr. Bishop?
    Mr. Bishop. Thank you very much, Mr. Chairman. I just have 
a couple of things with respect to the Clean Water Act and the 
proposed rule.
    First off, I think words matter, and I think accuracy 
matters. Several of our colleagues have spoken today about the 
rule expanding the definition of waters covered under the Clean 
Water Act. Is it not more correct to say that what the rule 
seeks to do is clarify the definition of waters under the Clean 
Water Act?
    Ms. Darcy. That is correct.
    Mr. Bishop. OK. And the way this process is working is 
standard, is it not? I mean putting out a proposed rule, and 
having a 90-day public comment period, and then incorporating 
those comments into a final rule, that is how executive branch 
agencies conduct their business. Is that not correct?
    Ms. Darcy. That is correct.
    Mr. Bishop. OK. Now, Mr. Meadows asked some questions 
regarding which waters previously covered by the Clean Water 
Act would not be covered once the proposed rule is finalized. 
And isn't it more correct to recognize that at this point there 
is no way of knowing the answer to that question until the rule 
is finalized?
    Ms. Darcy. That is correct.
    Mr. Bishop. OK. So this is not a power grab. This is not 
the Federal Government expanding its reach. This is the Federal 
Government responding to a Supreme Court ruling which 
instructed the appropriate agencies to clarify which waters 
would be covered and which would not be. Is that correct?
    Ms. Darcy. That is correct. It would be a rulemaking, was--
--
    Mr. Bishop. OK. So what I guess I would hope is that we 
would let the process work its way out, and that all of us will 
withhold our judgments with respect to whether the proposed 
rule--and if it becomes a final rule, whether that is good or 
bad, whether it expands or contracts. We should withhold our 
judgment until those processes work its way through. Is that--
--
    Ms. Darcy. We are hoping the process will get us to there.
    Mr. Bishop. OK. Could you just talk to us a little bit 
about how you see the process going forward? I mean you are 
going to be assembling, I would imagine, an enormous number of 
comments.
    Ms. Darcy. We will be. We will also be doing some outreach 
with locals and stakeholders as to their reaction. The public 
comment period is 90 days. Anyone can comment on the rule. 
Either by Web sites----
    Mr. Bishop. OK. Mr. Mullin raised some, I thought, 
legitimate concerns about the extent to which States will be 
involved. States will be involved, correct?
    Ms. Darcy. Yes, yes.
    Mr. Bishop. OK. All right, Mr. Chairman, I am going to 
yield back. Thank you very much.
    Mr. Gibbs. Mr. Davis?
    Mr. Davis. Thank you, Mr. Chairman. And just following up a 
little bit on some of your questions, and--I really appreciate, 
again, both of you being here today.
    I have concerns, too, like many have raised, in regards to 
the Clean Water Act, and how this--how your final rule is going 
to define navigable waterways. I have tremendous concerns, 
especially in light of the fact that it seems that, in one 
instance, the DC Court of Appeals has allowed the EPA to 
basically veto one of your already-existing 404 permits. And 
they retroactively vetoed that permit.
    If--you know, what, if any, guidelines or agreements exist 
right now between the Corps and the EPA which would describe 
the circumstances or the criteria of when the EPA will veto a 
Corps-issued 404 permit?
    Ms. Darcy. Under the Clean Water Act, the EPA has the 
authority, under 404, I believe it is--I don't have the right 
citation--to veto a Department of the Army permit with whatever 
just cause they feel is right from their perspective.
    Mr. Davis. So the EPA----
    Ms. Darcy. That exists in current law.
    Mr. Davis. Right. The EPA currently has veto power over 
existing 404 permits that you are permitting.
    Ms. Darcy. They do have that authority.
    Mr. Davis. OK. Throughout this process now that we have 
discussed at this committee, are you going to develop, in 
conjunction with the EPA, any guidelines of what would 
constitute the EPA's ability to come in and veto an existing 
permit that has gone through a review process?
    Ms. Darcy. The proposed rule, Congressman, does not address 
the veto authority of EPA. It addresses what waters will or 
will not be covered----
    Mr. Davis. Will the Corps of Engineers be open to an 
addendum to any rule that would allow some guidelines to be put 
forth, so that the EPA cannot veto work that you are already 
doing?
    Ms. Darcy. We are always open to conversation and 
collaboration with our sister agency to make the process more 
efficient. And I think that is always something that we should 
be open to.
    Mr. Davis. OK. Well, I appreciate that. And, obviously, you 
see a lot of concern from many Members, both sides of the 
aisle, on how a navigable waterway is going to be defined. We 
have issues. And I just met back in a room with agricultural 
leaders who are in the livestock industry. They are concerned 
about issues that we are facing right here, talking about with 
you. These are concerns that are not going to go away until the 
final rule is issued. And, even then, I doubt that they go 
away. I doubt that we are still going to have some concerns 
about what the final definition is.
    So, I will move on. General Bostick, I have some time left. 
I wanted to get to Olmsted. Olmsted, obviously, is in my home 
State. I have toured the project in its infancy. Obviously, as 
you are, as many are, we are disappointed in the cost overruns 
and the continued delays. With that in mind, how much do you 
think the Federal Government is going to have to invest in 
rehabilitating lock and dam 52 and 53 because Olmsted has not 
come online to make them go offline?
    General Bostick. Congressman, I don't have the exact 
figures on lock and dam 52 and 53. I do know that those are in 
very bad shape, very poor shape, which is why Olmsted is our 
top priority. We are about 60 percent complete on Olmsted, and 
the balance to complete for that is about $1 billion.
    Mr. Davis. And there is $126 million in the President's 
budget for Olmsted, correct?
    General Bostick. [No response.]
    Mr. Davis. Yes, it is. I believe that is correct. Or $160 
million, I apologize, $160 million is in the President's 
request, half from the Inland Waterway Trust Fund, and half 
from the hardworking taxpayers of this country, too.
    With Olmsted, do you think that the public-private 
partnership language that is actually included in the House 
version of WRDA where we authorize 15 projects that could 
address inland waterway issues, do you think finishing Olmsted 
could be an option through a public-private partnership?
    General Bostick. You know, I am optimistic, so I think 
anything is possible if you put your mind to it, and you have 
got the support of the people involved.
    That being said, we have a long way to go with public-
private partnerships in the United States. I met with a group 
of CEOs, and one of them told me he has done 600 public-private 
partnerships; 5 of them have been in the United States. So 
there are a lot of things that we need to work on, from a legal 
aspect, from a cultural aspect, from a profit aspect, in order 
to make public-private partnerships work. But they have been 
working on some small-scale efforts across the country.
    So, I wouldn't count it out, but I think we have got a long 
way to go.
    Mr. Davis. Well, I appreciate your optimism on that, and I 
agree with you, that many countries that are not the United 
States still build infrastructure projects, and they don't have 
Inland Waterway Trust Funds, they don't have Harbor Maintenance 
Trust Funds. They use public-private partnerships to do that. 
And I want to continue to make sure that the Corps is willing 
to take into consideration new and innovative ways, so that we 
can build our infrastructure.
    I mean, as somebody who represents the Mississippi River, I 
have a tremendous concern when 17 years ago we picked an option 
to upgrade our water infrastructure along the Mississippi and 
Illinois Rivers, and we have yet to do so because we have 
projects like Olmsted that are still backlogged. So I hope we 
can work together in some new and innovative approaches to 
begin that process.
    And I also want to commend this committee for making some 
regulatory changes in WRDA that will hopefully speed up the 
regulatory process, and save taxpayers billions, and also get 
the Corps of Engineers to the point where we are building these 
projects, rather than talking about them.
    General Bostick. In fact, Congressman, this month I have a 
panel of experts coming in, both academic and business leaders 
including one of these CEOs that I mentioned, and the topic is 
public-private partnerships. So we are looking for 
opportunities to do the financing when we know that the 
Government cannot pay the full bill for these projects.
    Mr. Davis. Well, I appreciate your willingness to do so, 
and I would ask that you keep in communication on the progress 
of those discussions, on P3s.
    And I would ask you one last question. Do you anticipate 
rebuilding any other projects in the wet?
    General Bostick. Really, I am not thinking about that at 
this time. I can't say that it would never happen again, you 
know, but I think at the time, some of the best minds that we 
had worked that and came up with that decision. So I have not 
gone back to question it. But currently I am not thinking about 
it.
    Mr. Davis. Well, I will ask it again the next time you are 
back, sir. Thank you very much for your time, and I yield back.
    Mr. Gibbs. What was always amazing about that, when I got 
this job and I found out that the two locks were built in the 
dry, and the dam couldn't be--it was built in the wet, it kind 
of blew me away when they talked about the seasonal, 50 feet--
you know, but they were--you guys were able to build the two 
1,200-foot locks in the dry. So that is just an interesting 
thought that I had.
    And, as you know, in WRDA we do have--we do challenge the 
Corps to--on a pilot project, anyway, to find some private-
public partnerships, and try to develop that.
    Again, thank you for coming in today. Thank you for the 
work that you do. And we are working together to enhance our 
global competitiveness and grow our economy and create jobs, 
and you have played a key role in that, so thank you very much. 
And this concludes our hearing today.
    Ms. Darcy. Congressman? With one indulgence?
    Mr. Gibbs. Yes.
    Ms. Darcy. The congressman has returned, and he asked me a 
question that I didn't have the answer to, and I do now, so can 
I just tell you----
    Mr. Gibbs. Go ahead.
    Ms. Darcy. That the Chicago Sanitary and Ship Canal, O&M, 
once the barriers are completed, we estimate to be about $15 
million a year.
    Mr. Davis. OK. Thank you very, very much. Thanks to both of 
you.
    Mr. Gibbs. I was three short in my answer on that.
    [Laughter.]
    Mr. Gibbs. Thank you.
    [Whereupon, at 12:23 p.m., the subcommittee was adjourned.]
    
    [GRAPHIC] [TIFF OMITTED] 
    
    
</pre></body></html>
